App. 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STONE CREEK, INC.,
an Arizona corporation,
Plaintiff-Appellant,
v.
OMNIA ITALIAN DESIGN,
INC., a California
corporation,

No. 18-15914
D.C. No.
2:13-cv-00688-DLR
District of Arizona,
Phoenix
ORDER
(Filed Jun. 26, 2020)

Defendant-Appellee.
Before: LUCERO,* CALLAHAN, and BADE, Circuit
Judges.
Judges Callahan and Bade have voted to deny the
petition for rehearing en banc. The full court has been
advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35. The petition for rehearing en banc is denied.

* The Honorable Carlos F. Lucero, United States Circuit
Judge for the U.S. Court of Appeals for the Tenth Circuit, sitting
by designation.

App. 2
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STONE CREEK, INC.,
an Arizona corporation,

Nos. 18-15914
19-15167

Plaintiff-Appellant,

D.C. No.
2:13-cv-00688-DLR

OMNIA ITALIAN DESIGN,
INC., a California
corporation,

MEMORANDUM*

v.

(Filed Apr. 20, 2020)

Defendant-Appellee.
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
Argued and Submitted December 3, 2019
San Francisco, California
Before: LUCERO,** CALLAHAN, and BADE, Circuit
Judges.
This appeal concerns Stone Creek, Inc.’s entitlement to the approximately $4.5 million that Omnia
Italian Design, Inc. made from selling furniture
branded with the STONE CREEK trademark in Bon* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Carlos F. Lucero, United States Circuit
Judge for the U.S. Court of Appeals for the Tenth Circuit, sitting
by designation.

App. 3
Ton Stores, Inc.’s retail locations throughout the Midwest. This court previously determined that Omnia’s
blatant appropriation of the mark violated the Lanham Act. Stone Creek, Inc. v. Omnia Italian Design,
Inc., 875 F.3d 426, 429 (9th Cir. 2017). We credited the
district court’s factual findings but remanded the case
for a determination of whether Stone Creek was entitled to a disgorgement of Omnia’s profits under 15
U.S.C. § 1117(a). Id. at 436, 442. On remand, the district court declined to award profits and shifted costs
to Stone Creek under Federal Rule of Civil Procedure
68. Stone Creek appeals these decisions. Stone Creek
also challenges the district court’s admission of survey
evidence relied upon by one of Omnia’s expert witnesses. We have jurisdiction under 28 U.S.C. § 1291.
We affirm in part, reverse in part, and remand.1
1. The district court did not abuse its discretion
in denying Stone Creek an award of Omnia’s profits.
See Playboy Enters., Inc. v. Baccarat Clothing Co., 692
F.2d 1272, 1275 (9th Cir. 1982) (“[U]nless we are left
with a definite and firm conviction that a clear error of
judgment occurred, the trial court’s denial of an award
of profits must be upheld.”). “An award of profits is not
automatic upon a finding of infringement.” Fifty-Six
Hope Rd. Music, Ltd. v. A.V.E.L.A., Inc., 778 F.3d 1059,
1073 (9th Cir. 2015) (internal quotation marks and citation omitted). The district court determined on remand that Omnia’s sales of STONE CREEK-branded

1

Because the parties are familiar with the facts of this case,
we need not discuss them at length here.

App. 4
goods were not attributable to the infringement.2 See
Maier Brewing Co. v. Fleischmann Distilling Corp., 390
F.2d 117, 124 (9th Cir. 1968) (“The plaintiff of course is
not entitled to profits demonstrably not attributable to
the unlawful use of his mark.” (quoting Mishawaka
Rubber & Woolen Mfg. Co. v. S. S. Kresge Co., 316 U.S.
203, 206 (1941)). This finding is not clearly erroneous,
as it is supported by record evidence, including expert
testimony. Moreover, the Lanham Act does not entitle
plaintiffs to windfalls. See 15 U.S.C. § 1117(a) (allowing
for disgorgement only to the extent it “constitute[s]
compensation and not a penalty”); Fifty-Six Hope Rd.
Music, 778 F.3d at 1073. Disgorgement here, where
Omnia did not profit from the infringement, would
amount to an inequitable windfall because Stone
Creek lacks brand awareness in the Midwest and has
made only minimal sales there.
2. The district court did not abuse its discretion
in admitting Omnia’s survey evidence. Stone Creek asserts that Omnia violated Rule 26 by not disclosing the
individual surveys underlying the opinion of one of its
expert witnesses. But Omnia provided spreadsheets
containing the survey responses, and the expert himself did not receive the data broken out by individual.
Stone Creek also contends that the surveys constitute
inadmissible hearsay. But survey evidence is admitted
as a matter of course in trademark disputes, see E. &
2

The district court also concluded that Omnia did not willfully infringe Stone Creek’s mark because it did not intend to
trade on Stone Creek’s goodwill. Because we affirm on alternative
grounds, we do not reach this issue.

App. 5
J. Gallo Winery v. Gallo Cattle Co., 967 F.2d 1280, 129293 (9th Cir. 1992), and the survey responses are admissible under Federal Rule of Evidence 703 as the bases
of the expert’s opinions.
3. The district court erred in awarding Omnia
costs under Rule 68. Omnia and Bon-Ton made Stone
Creek a joint $25,000 offer of judgment, which Stone
Creek rejected. Stone Creek then improved its position
by settling with Bon-Ton for more than that amount. A
settlement resulting in dismissal with prejudice constitutes a judgment for purposes of Rule 68. Lang v.
Gates, 36 F.3d 73, 76 (9th Cir. 1994). The district court
therefore needed only to add the settlement amount to
the final judgment and compare that figure to the defendants’ joint Rule 68 offer. Accordingly, we vacate the
district court’s judgment of costs and remand this case
for further proceedings consistent with this disposition.
AFFIRMED IN PART, REVERSED IN PART,
and REMANDED.

LUCERO, J., concurring in part and dissenting in
part:
I concur with the conclusion of my colleagues that
the district court did not abuse its discretion in admitting Omnia’s survey evidence and that it erred in shifting costs to Omnia under Federal Rule of Civil
Procedure 68. I disagree, however, with their conclusion that the profits from sales by Omnia of STONE

App. 6
CREEK-branded goods were not attributable to Omnia’s infringement. Additionally, the majority should
have addressed willfulness. Accordingly, I respectfully
dissent.
I
This court previously determined that Omnia infringed Stone Creek’s trademark. See Stone Creek, Inc.
v. Omnia Italian Design, Inc., 875 F.3d 426, 432, 439
(9th Cir. 2017) (“Stone Creek I”). When a defendant is
found liable for trademark infringement, the Lanham
Act provides that a court may award disgorgement of
profits to the plaintiff. See id. at 439 (citing 15 U.S.C.
§ 1117(a)). Willfulness is a prerequisite to the order by
a court of such a disgorgement. Id. at 441. Even if a
plaintiff shows willful infringement, it is entitled only
to those profits that are attributable to an unlawful use
of its mark. Maier Brewing Co. v. Fleischmann Distilling Corp., 390 F.2d 117, 124 (9th Cir. 1968).
A
The burden of demonstrating that profits are not
attributable to the infringement falls upon the infringer. See Nintendo of Am., Inc. v. Dragon Pac. Int’l,
40 F.3d 1007, 1012 (9th Cir. 1994). In the case at bar,
the district court concluded that Omnia had met that
burden by showing that consumers were “unaware of
the Stone Creek brand” and did not experience actual
confusion between Stone Creek and Omnia in purchasing Omnia furniture bearing the STONE CREEK

App. 7
mark. Stone Creek Inc. v. Omnia Italian Design Inc.,
No. CV-13-00688-PHX-DLR, 2018 WL 1784689, at *3
(D. Ariz. Apr. 12, 2018). Yet neither the district court
nor the majority cite any authority for the proposition
that brand awareness or actual confusion is required
in order to prove that profits are attributable to the
unlawful use of a mark. Such a requirement, moreover,
is inconsistent with Ninth Circuit precedent.
In Maier Brewing, this court recognized that the
protection of a trademark is essentially the defense “of
the psychological function of symbols.” 390 F.2d at 122
(quoting Mishawaka Rubber & Woolen Mfg. Co. v. S. S.
Kresge Co., 316 U.S. 203, 205 (1942)). A trademark induces purchasers to select the objects they want, or
what objects they have “been led to believe [they]
want[ ],. . . .” Id. Correlatively, if a trademark owner is
able “to convey through the mark . . . the desirability
of the commodity upon which [the mark] appears,”
then the owner has achieved “something of value.” Id.
Therefore, if an infringer exploits customers’ “response
to the diffused appeal of the plaintiff ’s symbol,” the infringer profits from its infringement. Id. at 124. Returning to the Lanham Act, I stress that the purpose
of the Act is to make trademark infringement “unprofitable.” Id. at 123.
When Omnia elected to “use” the STONE CREEK
mark because it sounded “American,” it acted deliberately and intentionally. Stone Creek I credited the district court’s findings that (1) Bon-Ton wanted to sell
Omnia’s furniture under a different label with an
“American made name” and that (2) Omnia unlawfully

App. 8
branded its furniture with the STONE CREEK mark
because the mark “sounded American.” Stone Creek
Inc. v. Omnia Italian Design Inc., No. CV-13-00688PHX-DLR, 2015 WL 6865704, at *3 (D. Ariz. Nov. 9,
2015). Using documentary materials Stone Creek provided to Omnia in the course of their business relationship, and without Stone Creek’s knowledge or
permission, Omnia digitally recreated a mark identical
to the STONE CREEK mark, slapped it on the furniture it sold to Bon-Ton, and reaped $4,455,352 from the
sale of that furniture to Bon-Ton’s customers. Id. at *3–
4.
On these facts, it is clear that the “diffused appeal”
or “psychological function” of the STONE CREEK
mark is the conveyance to consumers that furniture
bearing the mark was “American[-]made.” Bon-Ton
contracted with Omnia to purchase furniture bearing
a mark signifying that the furniture was Americanmade, and Omnia picked STONE CREEK for this reason. The burden thus fell upon Omnia to show that the
nearly $4.5 million it made through the sale of STONE
CREEK-branded furniture to Bon-Ton, and ultimately
to consumers, was not attributable to its exploitation
of Stone Creek’s American-sounding name.3
Omnia utterly failed to meet that burden. Despite
evidence that Omnia stole the STONE CREEK mark
precisely because of its diffused appeal, the district
3

The district court and majority erroneously consider only
the sale of infringing furniture by Bon-Ton. Bon-Ton itself was a
purchaser of the infringing goods. See id. at *3.

App. 9
court concluded that Omnia met its burden by submitting expert testimony and survey evidence regarding
consumers’ lack of awareness of the STONE CREEK
brand. This was error. Neither logic nor precedent supports the notion that brand awareness is necessary in
order for a consumer to make a purchasing decision
based on the diffused appeal or psychological function
of a trademark.
Maier Brewing stands for just the opposite proposition. That case criticized previous decisions relying
solely on injunctions to protect a trademark owner
from the diversion of sales. 390 F.2d at 122-23. Observing that even if a trademark owner’s goods are of lesser
quality than an infringer’s, the court recognized that a
trademark owner is nevertheless “deprived of [its]
right to the exclusive use and control of the reputation
of [its] product” if its mark is infringed. Id. at 122. The
court explained that even if profits were not diverted
from the trademark-owner because its goods were not
in direct competition with the infringer’s, the infringer
was unjustly enriched by its infringement, and the
“buying public” was harmed by “some of the more unscrupulous members of our economic community.” Id.
at 123. By limiting their focus to “brand awareness”
and the fact that Stone Creek and Bon-Ton had different sales territories, both the district court and the majority ignored these concerns.
I would hold that Omnia failed to meet its burden
to show that its profits from the sale of infringing furniture were not attributable to its infringement. Lack

App. 10
of brand awareness or actual confusion are insufficient
to meet that burden.
B
The majority did not address whether Omnia’s infringement was willful. In this circuit, disgorgement
under the Lanham Act is appropriate “only in those
cases where the infringement is willfully calculated to
exploit the advantage of an established mark” or
“where the defendant is attempting to gain the value
of an established name of another.” Lindy Pen Co. v. Bic
Pen Corp., 982 F.2d 1400, 1405, 1406 (9th Cir. 1993)
(quotations omitted).4
The district court found that Omnia ripped off the
STONE CREEK mark because it “sounded American
and because marketing materials and a logo were already prepared.” 2015 WL 6865704, at *3. It concluded
that Omnia therefore did not intend to trade off Stone
Creek’s goodwill because Stone Creek had no brand
awareness in Bon-Ton’s trading territory. But as explained above, an inherent and protectable aspect of
the STONE CREEK mark—its “diffused appeal” or
“psychological function”—necessarily includes its
American-sounding name. Omnia intended to trade off
this aspect of the mark; Stone Creek’s lack of brand
awareness or sales in Bon-Ton’s territory is irrelevant
to this intent. Because Omnia’s actions were “calculated to exploit the advantage” of the STONE CREEK
4

The majority cites no precedent supporting that a mark is
not “established” if consumers lack awareness of a brand.

App. 11
mark—its American-sounding name—I would hold
that Omnia’s infringement of the mark was willful. No
one made Omnia do it. As I noted above, its conduct
was deliberate and intentional.
C
Willfulness and attributability having been satisfied, I address equitable considerations. The Lanham
Act requires that remedies for infringement be “subject
to the principles of equity.” § 1117(a). The majority
holds that disgorgement “would amount to an inequitable windfall since Stone Creek lacks brand awareness in the Midwest and has only made minimal sales
there.” Again, its reliance on a lack of brand awareness
and sales is misplaced.
In Maier Brewing, this court held that even when
a trademark owner is not in direct competition with
the infringer, disgorgement is yet appropriate under
an “unjust enrichment rationale.” 390 F.2d at 123. The
court recognized that willful infringement, even in the
absence of diverted sales, “slight[s]” the trademark
owner and the public “if the court provides no greater
remedy than an injunction.” Id. In balancing the equities to analyze whether disgorgement is appropriate in
the absence of competition, the court observed:
It seems scarcely equitable for an infringer to
reap the benefits of a trade-mark he has stolen, force the registrant to the expense and delay of litigation, and then escape payment of
damages on the theory that the registrant

App. 12
suffered no loss. To impose on the infringer
nothing more serious than an injunction when
he is caught is a tacit invitation to other infringement.
Id. (quotation and alterations omitted).
This is precisely what the district court and the
majority have done.5 Omnia blatantly stole Stone
Creek’s mark, forced Stone Creek to the expense and
delay of litigation, and got off with only an injunction.
It has not been ordered to disgorge its ill-gotten profits
on the statement that Stone Creek did not have any
sales in the territory where the infringing furniture
was sold. The district court reasoned that consumers
were unaware of the Stone Creek brand and therefore
did not confuse it with Omnia. But this case presents
the exact “unjust enrichment” situation contemplated
by Maier Brewing as an independent basis for disgorgement. Because Omnia’s behavior mirrors the precise scenario described in Maier Brewing—conduct
this court has condemned—the equities weigh in favor
of disgorgement.

5

I do not consider it analytically helpful to justify the denial
of an award in this case by characterizing the award as a “windfall.” Using the term “windfall” as a correlative of a sanction
seems to me inappropriate. Under this logic, punitive damages
would always be prohibited, even where jurisprudentially appropriate.

App. 13
II
I would not be so quick to let Omnia off the hook
for its willful, deliberate, intentional, and wrongful
conduct. I would not allow Omnia to get off scot free
with only a slap on the wrist and a scold that it “not do
it again.” I would enforce the precedent of this circuit,
clearly articulated in Maier Brewing. It is our clearly
established precedent that in the absence of disgorgement, a party may end up adopting a deliberate business pattern of trade piracy selling products under the
trademark of another. 390 F.2d at 123. In concluding
otherwise, the majority invites the danger warned of in
Maier Brewing. Stone Creek is a small company, based
in one city, with hopes of expanding. With but an injunction facing Omnia, there is nothing to prevent it
from assuming another company’s “American-sounding” mark that it might find appealing to consumers;
repeating its conduct by selling infringing furniture
outside the next company’s territory until it is caught;
and so on.
Fifty years ago, this circuit recognized that such a
result was inequitable. Because we should have done
so again today, I most respectfully dissent.

App. 14
No. 18-15914
============================================================================
In the United States Court of Appeals
For the Ninth Circuit
============================================================================
STONE CREEK, INC.
Plaintiff-Appellant,
v.
OMNIA ITALIAN DESIGN, INC.
Defendant-Appellee.
============================================================================
Appeal from the United States District Court
for the District of Arizona
District Court Case No. 2:13-cv-00688-DLR
The Honorable Douglas L. Rayes
============================================================================
ANSWERING BRIEF OF APPELLEE
OMNIA ITALIAN DESIGN, INC.
============================================================================
LEWIS BRISBOIS
BISGAARD &
SMITH LLP
Jeffry A. Miller,
SBN 126074
jeff.miller@
lewisbrisbois.com
Scott M. Schoenwald,
SBN 129792
scott.schoenwald@lewisbrisbois.com

LEWIS BRISBOIS
BISGAARD &
SMITH LLP
Daniel C. DeCarlo,
SBN 160307
dan.decarlo@
lewisbrisbois.com
633 West 5th Street,
Suite 4000
Los Angeles, California
90071

App. 15
701 B Street, Suite 1900
San Diego, California
92101
Telephone: 619.233.1006
Facsimile: 619.233.8627

Telephone: 213.250.1800
Facsimile: 213.250.7900

Attorneys for Defendant-Appellee
OMNIA ITALIAN DESIGN, INC.

[2] CORPORATE DISCLOSURE STATEMENT
(Fed. R. App. P. 26.1)
Appellee Omnia Italian Design, Inc. does not have
a parent corporation. No publicly held corporation
holds a ten percent interest in Omnia Italian Design,
Inc.
DATED:
LEWIS BRISBOIS BISGAARD &
December 7, 2018 SMITH LLP
By: /s/ Jeffry A. Miller
Daniel C. DeCarlo
Jeffry A. Miller
Scott M. Schoenwald
Attorneys for Defendant-Appellee
OMNIA ITALIAN DESIGN, INC.

[2] TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT ......

2

TABLE OF AUTHORITIES .................................

4

App. 16
INTRODUCTION ................................................

8

JURISDICTIONAL STATEMENT ......................

9

A.

The District Court’s Subject-Matter Jurisdiction ........................................................

9

B.

This Court’s Jurisdiction ...........................

9

C.

Timeliness of the Appeal ...........................

9

ISSUES PRESENTED .........................................

9

STATEMENT OF THE CASE.............................. 10
A.

Stone Creek’s Furniture Business and
Trademark ................................................. 10

B.

Stone Creek’s Business Relationship with
Omnia ........................................................ 10

C.

Omnia’s Use of Stone Creek’s Mark .......... 11

D.

Stone Creek Sues Omnia ........................... 11

E.

The District Court Enters Judgment in
Omnia’s Favor. ......................................... 12

F.

Stone Creek’s First Appeal (Stone Creek I) .... 13

G.

The District Court Enters Judgment in
Omnia’s Favor on Remand ........................ 15

SUMMARY OF ARGUMENT .............................. 18
STANDARD OF REVIEW ................................... 19
ARGUMENT ........................................................ 20
I.

The District Court’s Findings of Fact,
Which This Court Ratified in Stone Creek I,
Constitute the Law of the Case ................. 20

App. 17
[3] II. Stone Creek Is Not Entitled to the Disgorgement of Omnia’s Profits Because Omnia Did
Not Willfully Infringe Stone Creek’s Mark ... 23
A. Disgorgement of Profits Is Not Available As a Matter of Right ....................... 23
B. The District Court’s Findings of Fact
from the Bench Trial That Preceded
Stone Creek I Establish Omnia’s Lack
of Willfulness ........................................ 26
C. Stone Creek’s Reliance on Sleekcraft’s
“Intent” Factor Is Misplaced Because
It Is Irrelevant to Whether Omnia’s
Infringement of the Stone Creek Mark
Was Willful ............................................ 31
III.

Stone Creek Is Not Entitled to the Disgorgement of Omnia’s Profits Because the
Infringing Sales Were Not Attributable to
Omnia’s Infringement ............................... 37

IV.

Stone Creek Is Not Entitled to the Disgorgement of Omnia’s Profits Because It
Waived Its Objection to the Calculation of
Such Profits ............................................... 40

V.

The District Court Did Not Abuse Its Discretion in Admitting the Testimony of Dr.
Charles Cowan, Omnia’s Survey Expert,
Because Stone Creek’s Rule 26 and Hearsay Objections Have No Merit ................... 41

CONCLUSION..................................................... 45
CERTIFICATE OF COMPLIANCE ..................... 46
STATEMENT OF RELATED CASES .................. 47
CERTIFICATE OF SERVICE ............................. 48

App. 18
[4] TABLE OF AUTHORITIES
Cases

Page

AMF, Inc. v. Sleekcraft Boats,
599 F.2d 341 (9th Cir. 1979) ................... 12-14, 30-35
Askins v. United States Dep’t of Homeland Sec.,
899 F.3d 1035 (9th Cir. 2018) ..................................21
Bandag, Inc. v. Al Bolser’s Tire Stores, Inc.,
750 F.2d 903 (Fed. Cir. 1984) ..................................24
Bradley v. Duncan,
315 F.3d 1091 (9th Cir. 2002) ..................................21
Break-Away Tours, Inc. v.
British Caledonian Airways,
704 F. Supp. 178 (S.D. Cal. 1988)............................24
Brookfield Communications, Inc. v.
West Coast Entertainment Corp.,
174 F.3d 1036 (9th Cir. 1999) ..................................35
Contessa Food Products, Inc. v.
Lockpur Fish Processing Co.,
No. CV 98-8212 NM(SHX), 2001 U.S. Dist.
LEXIS 25998 (C.D. Cal. Nov. 26, 2001) ..................36
Fifty-Six Hope Rd. Music, Ltd. v. A.V.E.L.A., Inc.,
778 F.3d 1059 (9th Cir. 2015) ............................ 24, 35
Fla. Bar v. Went For It, Inc.,
515 U.S. 618 (1995) .................................................43
Fleischmann Distilling Corp. v.
Maier Brewing Co.,
314 F.2d 149 (9th Cir. 1963) ....................................35
Frank Music Corp. v.
Metro-Goldwyn-Mayer, Inc.,
772 F.2d 505 (9th Cir. 1985) ....................................41

App. 19
Frank v. Mangum,
237 U.S. 309 (1915) .................................................21
George & Co., LLC v. Imagination Entm’t Ltd.,
575 F.3d 383 (4th Cir. 2009) ....................................34
[5] Grosz-Salomon v. Paul Revere Life Ins. Co.,
237 F.3d 1154 (9th Cir. 2001) ..................................19
Hall v. City of Los Angeles,
697 F.3d 1059 (9th Cir. 2012) ..................................20
Highway Cruisers of Cal., Inc. v. Sec. Indus., Inc.,
374 F.2d 875 (9th Cir. 1967) .............................. 25, 34
HydraMedia Corp. v. Hydra Media Group, Inc.,
392 F. App’x 522 (9th Cir. 2010) ..............................28
Lindy Pen Co. v. Bic Pen Corp.,
982 F.2d 1400 (9th Cir. 1993) ...... 20-21, 24-27, 33, 37
M2 Software, Inc. v. Madacy Entm’t,
421 F.3d 1073 (9th Cir. 2005) ..................................44
Maier Brewing Co. v. Fleischmann
Distilling Corp.,
390 F.2d 117 (9th Cir. 1968) .............................. 23, 40
Marketquest Group, Inc. v. BIC Corp.,
862 F.3d 927 (9th Cir. 2017) ....................................34
Mattel Inc. v. Walking Mountain Products,
353 F.3d 792 (9th Cir. 2003) ....................................12
Milgard Tempering, Inc. v. Selas Corp. of Am.,
902 F.2d 703 (9th Cir. 1990) ....................................21
Mishawaka Rubber & Woolen Mfg. Co. v.
S. S. Kresge Co.,
316 U.S. 203 (1942) .................................................40
Morris v. Ylst,
447 F.3d 735 (9th Cir. 2006) ....................................42

App. 20
Old Person v. Brown,
312 F.3d 1036 (9th Cir. 2002) ..................................20
Pittsburgh Press Club v. United States,
579 F.2d 751 (3d Cir. 1978) .....................................44
[6] Potts v. Zettel,
220 F. App’x 559 (9th Cir. 2007) ..............................43
Prudential Ins. Co. v. Gibraltar Fin. Corp.,
694 F.2d 1150 (9th Cir. 1982) ............................ 43, 44
Rolex Watch, U.S.A., Inc. v. Michel Co.,
179 F.3d 704 (9th Cir. 1999) ....................................19
Skydive Arizona, Inc. v. Quattrocchi,
673 F.3d 1105 (9th Cir. 2012) ..................................19
Southland Sod Farms v. Stover Seed Co.,
108 F.3d 1134 (9th Ci r. 1997) .................................45
Spin Master, Ltd. v. Zobmondo Entm’t, LLC,
944 F. Supp. 2d 830 (C.D. Cal. 2012) ......................26
Sporty’s Farm L.L.C. v. Sportsman’s Market, Inc.,
202 F.3d 489 (2d Cir. 2000) ............................... 19-20
Stone Creek, Inc. v. Omnia Italian Design, Inc.,
875 F.3d 426 (9th Cir. 2017) ....... 15, 19, 22-24, 26-27,
31-34, 41-42
SunEarth, Inc. v. Sun Earth Solar Power Co.,
839 F.3d 1179 (9th Cir. 2016) ..................................20
Thomas v. Bible,
983 F.2d 152 (9th Cir. 1993) .............................. 21-23
TrafficSchool.com, Inc. v. Edriver Inc.,
653 F.3d 820 (9th Cir. 2011) ....................................26
Trent v. Valley Elec. Ass’n,
195 F.3d 534 (9th Cir. 1999) ....................................22

App. 21
United States v. Alexander,
106 F.3d 874 (9th Cir. 1997) .............................. 21-23
United States v. Gadson,
763 F.3d 1189 (9th Cir. 2014) ..................................20
[7] United States v. Kama,
394 F.3d 1236 (9th Cir. 2005) ..................................40
Wendt v. Host Int’l, Inc.,
125 F.3d 806 (9th Cir. 1997) .............................. 44-45
Statutory Authorities
15 U.S.C. § 1116(a) ......................................................24
15 U.S.C. § 1117 .............................................. 19, 24, 37
15 U.S.C. § 1117(a) ......................................... 24, 26, 37
15 U.S.C. § 1121 ............................................................9
28 U.S.C. § 1291 ............................................................9
28 U.S.C. § 1331 ............................................................9
28 U.S.C. § 1338 ............................................................9
28 U.S.C. § 1367 ............................................................9
Rules and Regulations
4 J. Thomas McCarthy, McCarthy on Trademarks
and Unfair Competition, § 23:113 (4th ed. 2017) ... 32, 34
Fed. R. App. P. 4(a)(1)(A) ...............................................9
Fed. R. Civ. P. 26 .................................................... 10, 41
Fed. R. Evid. 803(1) ............................................... 43, 44
Fed. R. Evid. 807 .........................................................44

App. 22
[8] INTRODUCTION
In this second appeal between the parties, appellant Stone Creek, Inc. (“Stone Creek”) operates under
the erroneous premise that appellee Omnia Italian Design, Inc. (“Omnia”) willfully infringed Stone Creek’s
trademark and, therefore, the disgorgement of Omnia’s profits is warranted because Omnia knew or
should have known that the subject mark already belonged to Stone Creek at the time of its adoption and
use. Willfulness does not depend, however, on the infringer’s knowledge, exercise of due care, or even the
egregiousness of its conduct. The relevant inquiry instead is whether the infringer acted at its competitor’s
expense by intending to exploit the advantage of an established mark or gain the value of an established
name.
When evaluated under this prevailing legal standard, it becomes readily apparent that the district court
properly denied Stone Creek’s request for disgorgement of Omnia’s profits. Stone Creek could not and did
not prove that Omnia’s infringement of Stone Creek’s
mark was willful because the district court’s factual
findings from the October 2015 bench trial that preceded the first appeal between the parties established
that Omnia did not choose the subject mark with the
intent of trading off of Stone Creek’s goodwill. Without
such proof of Omnia acting at Stone Creek’s expense,
Stone Creek is not entitled to an award of profits. For
this reason, the judgment below should be affirmed in
its entirety.

App. 23
[9] JURISDICTIONAL STATEMENT
A.

The District Court’s Subject-Matter Jurisdiction.

The United States District Court for the District
of Arizona (“district court”) exercised subject-matter
jurisdiction over the underlying litigation pursuant to
15 U.S.C. § 1121, as well as 28 U.S.C. §§ 1331, 1338,
and 1367.
B.

This Court’s Jurisdiction.

This Court’s jurisdiction derives from 28 U.S.C.
§ 1291. The district court’s “Judgment in a Civil Case”
constituted its final judgment and disposed of all
claims. (Appellant’s Excerpts of Record, Volume 1 (“1
ER”) at 2.)
C.

Timeliness of the Appeal.

The district court entered the judgment Stone
Creek appeals from on April 30, 2018. (1 ER 2.) The
notice of appeal, filed on May 18, 2018, was timely under Rule 4(a) (1) (A) of the Federal Rules of Appellate
Procedure. (1 ER 1.)
ISSUES PRESENTED
1. Did the district court properly hold that Omnia did not willfully infringe Stone Creek’s mark because Stone Creek failed to prove that Omnia intended

App. 24
to exploit the advantage of Stone Creek’s mark or attempted to gain the value of Stone Creek’s name?
2. Did the district court properly deny Stone
Creek’s request for the disgorgement of Omnia’s profits
because Stone Creek failed to prove that Omnia [10]
willfully infringed Stone Creek’s mark or that Omnia’s
profits are attributable to its infringement?
3. Did the district court properly exercise its discretion in not striking the admissible testimony of Omnia’s qualified survey expert, Dr. Charles Cowan,
because Stone Creek’s hearsay and Federal Rule of
Civil Procedure 26 objections lack merit?
Omnia asserts that the answer to each of these
questions is “yes.”
STATEMENT OF THE CASE
A. Stone Creek’s Furniture Business and
Trademark.
Stone Creek manufactures furniture and sells its
products directly to customers in the Phoenix, Arizona
area, where it operates five showrooms. (1 ER 19.)
Stone Creek adopted and began using a trademark in
or about 1990 and obtained state trademark protection
two years later. (Id.) It was not until 2012, however,
that Stone Creek federally registered its mark. (Id.)
According to the federal registration, Stone Creek’s
mark is “a red oval circling the words ‘Stone Creek’ for
various types of furniture.” (Id.)

App. 25
B. Stone Creek’s Business Relationship
with Omnia.
Representatives of Stone Creek and Omnia, a
manufacturer of leather furniture, met at a California
trade show in 2003. (1 ER 19.) Following Omnia’s
presentation, the parties agreed that Omnia would
manufacture leather furniture branded with the Stone
Creek mark. (Id.) Stone Creek and Omnia continued
their business relationship [11] until 2013, when Stone
Creek learned that Omnia had been using Stone
Creek’s mark on other furniture without Stone Creek’s
authorization. (1 ER 19-20.)
C. Omnia’s Use of Stone Creek’s Mark.
In 2008, Omnia agreed to supply leather furniture
to retailer Bon-Ton Stores, Inc. (“Bon-Ton”). (1 ER 20.)
Bon-Ton, however, did not want to sell the furniture
under Omnia’s name, but rather under a name that
sounded “American.” (Id.) Omnia suggested various
names to Bon-Ton, which selected “Stone Creek” partly
because the marketing materials and logo had already
been prepared. (Id.) Omnia recreated the identical logo
and sold its leather furniture to Bon-Ton branded with
the Stone Creek mark from 2008 to 2013. (Id.) The furniture was then sold to customers at Bon-Ton’s furniture galleries in the Midwest. (Id.) All purchasers lived
within 200 miles of a Bon-Ton furniture gallery, which
included parts of Illinois, Indiana, Iowa, Michigan,
Ohio, Pennsylvania, and Wisconsin (the “Bon-Ton
Trading Territory” or “BTTT”). (1 ER 20-21.)

App. 26
D. Stone Creek Sues Omnia.
In 2013, Stone Creek’s president learned that BonTon was selling Omnia’s leather furniture branded
with the Stone Creek mark after customers contacted
Stone Creek regarding product options, store locations
in the Midwest, and a warranty issue. (1 ER 21.) Upon
inquiry by Stone Creek, Omnia acknowledged that it
was selling furniture using Stone Creek’s mark. (Id.)
Stone Creek thereafter filed suit against [12] Omnia in
the district court for federal and common law trademark infringement and unfair competition. (Id.)
E. The District Court Enters Judgment in
Omnia’s Favor.
In October 2015, the district court held a four-day
bench trial on Stone Creek’s claims against Omnia,
which resulted in the district court’s issuance of detailed order consisting of findings of fact and conclusions of law. (1 ER 49-61.) To assess whether Omnia’s
unauthorized use of Stone Creek’s mark was likely to
cause confusion, the district court flexibly applied the
non-exhaustive factors set forth in AMF, Inc. v. Sleekcraft Boats, 599 F.2d 341, 348-49 (9th Cir. 1979)
(“Sleekcraft”), abrogated on other grounds by Mattel
Inc. v. Walking Mountain Products, 353 F.3d 792, 806
(9th Cir. 2003). (1 ER 57-58.) The district court found
that the Sleekcraft factors, utilized by courts for determining whether confusion between related goods is
likely, weighed in Omnia’s favor, concluding:

App. 27
A. The STONE CREEK mark is strong in
Arizona, but it is not recognized in the
BTTT for its relationship to Stone Creek.
B.

The goods sold by Omnia and Stone
Creek are the same.

C.

The marks are the same.

D. There is no evidence of actual confusion
by any consumer in the BTTT who purchased Omnia furniture believing it was
manufactured or sold by Stone Creek.
E. The parties had distinct marketing channels with no opportunity for crossover.
Because of the local nature of the furniture industry, consumers in the BTTT
were not targeted for marketing by Stone
Creek.
[13] F. Furniture is expensive and consumers are therefore expected to exercise
greater care.
G. Bon-Ton selected the mark because it had
an American sound to it, and because the
marketing material and logo already existed and were in the possession of Omnia. There was no intent to trade off of
Stone Creek’s goodwill.
H. Stone Creek has no plans to expand.
(1 ER 59.) The district court nevertheless determined
that, even if the Sleekcraft factors instead weighed in
Stone Creek’s favor, the “evidence supports a finding
that separate markets prevented the likelihood of

App. 28
confusion.” (1 ER 60.) On this basis, the district court
entered judgment in Omnia’s favor on all claims. (1 ER
61.)
F. Stone Creek’s First Appeal (Stone Creek I).
Stone Creek appealed, which resulted in this
Court affirming in part and reversing in part the district court’s judgment in Omnia’s favor. (1 ER 14-48.)
At the outset of its analysis, this Court observed that
“[t]he touchstone for trademark infringement is the
likelihood of confusion, which asks whether a ‘reasonably prudent’ marketplace consumer is ‘likely to be
confused as to the origin of the good or service bearing
one of the marks.’ ” (1 ER 22.) Like the district court,
this Court applied the Sleekcraft factors to assess the
likelihood of confusion between Stone Creek’s mark
and the mark adopted and used by Omnia. (Id.) In doing so, this Court “credit[ed]” the district court’s factual
findings, but found that they led to a contrary conclusion as to the likelihood of confusion. (Id.)
[14] This Court explained that the Sleekcraft factors are not “created equal” and that “their relative
weight varies based on the context of a particular
case.” (1 ER 23.) According to the Court, the factors
weighing in favor of a likelihood of confusion in this
case were: (1) the similarity of Stone Creek’s and Omnia’s marks and goods; (2) the strength of Stone
Creek’s “fanciful” mark; (3) the evidence of actual confusion, which included examples of Bon-Ton customers
directing queries to Stone Creek regarding product

App. 29
options, store locations, and warranty issues; (4) the
convergence of marketing channels based on the simultaneous advertising and selling of furniture under
the Stone Creek mark in the Midwest, which included
$610,384 of Stone Creek’s sales occurring in the Midwest out of its more than $200 million in total sales
since its inception; and (5) the presumption that Omnia selected the Stone Creek mark with the intent to
deceive customers. (1 ER 23-30.) This Court concluded
that the remaining two Sleekcraft factors, which included the degree of consumer care based on the type
of goods and the likelihood of product expansion, either did not support one party over the other or weakly
supported Omnia. (1 ER 30.) Based on its analysis of
the Sleekcraft factors, this Court reversed the district
court’s finding of no likelihood of confusion. (1 ER 31.)
Having found a likelihood of confusion and, therefore, trademark infringement, this Court considered
the applicable standard for the disgorgement of profits,
which was the remedy Stone Creek sought. (1 ER 38.)
After examining whether a 1999 [15] amendment to
the Lanham Act’s1 remedy provisions impacted Ninth
Circuit case law regarding the award of profits, this
Court determined that “the district court properly
ruled that Stone Creek must show intentional or
willful infringement before disgorgement of Omnia’s
profits could be awarded.” (1 ER 38, 44.) The Court recognized that “many of the factual findings that the
1

The Lanham Act (also known as the Trademark Act of
1946) is the federal statute that governs trademarks, service
marks, and unfair competition.

App. 30
[district] court has already made—including those on
Omnia’s intent in selecting and using the STONE
CREEK mark—may be relevant to willfulness.” (1 ER
44.) The Court, however, expressly declined to rule that
Omnia’s infringement was willful as a matter of law
and ordered the district court to decide this question
on remand. (1 ER 44, 47.)
This Court filed its opinion on July 11, 2017, which
it subsequently amended by an order dated August 30,
2017. (1 ER 15, 17-18.) The amended opinion is reported at Stone Creek, Inc. v. Omnia Italian Design,
Inc., 875 F.3d 426 (9th Cir. 2017) (“Stone Creek I”).
G. The District Court Enters Judgment in
Omnia’s Favor on Remand.
Because Stone Creek sought only the disgorgement of Omnia’s profits and a permanent injunction,
the district court limited its analysis to these two remedies on remand. (1 ER 6.) To decide whether these
remedies were justified, the district court relied on its
factual findings from the October 2015 bench trial and
briefing by the [16] parties. (Id.; Supplemental Excerpts of Record (“SER”), at 3-48.) The district court
reasoned that it did not need to consider additional evidence “because the Ninth Circuit explicitly credited
[its] factual findings and remanded solely for the purpose of determining whether those facts justify the
remedies Stone Creek seeks.” (1 ER 6.)
First, the district court determined that Omnia
did not willfully infringe Stone Creek’s mark. (1 ER 6.)

App. 31
Observing that the “[d]isgorgement of profits is permitted ‘only in those cases where the infringement is
willfully calculated to exploit the advantage of an established mark’ or ‘where the defendant is attempting
to gain the value of an established name of another,’ ”
the district court concluded that such relief was unavailable to Stone Creek because “ ‘Omnia did not
choose the mark with the intent of trading [on] Stone
Creek’s goodwill.’ ” (1 ER 7.) The district court elaborated:
Instead, “Omnia selected the STONE CREEK
mark for Bon Ton’s private label, in part, because it sounded American and because marketing material and a logo were already
prepared.” Moreover, Omnia did not intend to
trade on Stone Creek’s goodwill in Bon Ton’s
trading territory because Stone Creek had no
goodwill in that territory, and Omnia did not
research where Stone Creek sold its furniture
prior to using the mark. Although Stone
Creek operated a website, it neither sold furniture through that website nor delivered furniture out of state, and the website did not
create awareness of the brand in the BTTT.
(Id.) Not only did a brand awareness survey by Dr.
Charles Cowan, an expert in statistics and economics,
reveal that 99.75 percent of the respondents were “ ‘not
familiar with Stone Creek in Arizona and Stone
Creek has no brand awareness in the [17] BTTT,’ ” the
district court found that “ ‘[t]he vast majority of Google
searches for Stone Creek Furniture originate in Arizona’ ” and “ ‘[t]he number of Google searches for the

App. 32
Stone Creek website from the BTTT is negligible.’ ” (1
ER 8.) Finally, the district court concluded that its factual findings indicate that Omnia may have been careless in adopting Stone Creek’s mark, but not willful. (1
ER 9.)
Second, the district court found that, even if Omnia
had willfully infringed Stone Creek’s mark, Stone
Creek was not entitled to the disgorgement of Omnia’s
profits because no profits were attributable to the infringement. (1 ER 9.) After the parties stipulated that
Omnia’s gross sales from its infringement totaled
$4,455,352, the district court found that Omnia satisfied its burden of proof that “the infringing products
were purchased for reasons unrelated to consumer perception of an affiliation between Stone Creek and the
infringing products.” (1 ER 9-10.) The district court
cited the lack of consumer awareness of the Stone
Creek brand in the BTTT and the absence of actual
confusion between Stone Creek and Omnia when customers purchased Omnia’s Stone Creek furniture. (1
ER 10.) The district court also pointed out that BonTon did not agree to sell Omnia’s furniture because of
Stone Creek’s mark. (Id.)
Finally, the district court determined that Stone
Creek was entitled to a permanent injunction. (1 ER
10.) Omnia had stopped using the Stone Creek mark
in 2013 and no evidence suggested that it would ever
use the Stone Creek mark again. [18] Nevertheless, the
district court granted Stone Creek’s request for a permanent injunction precluding Omnia from using Stone
Creek’s marks or any other confusingly similar mark.

App. 33
(1 ER 2, 10-13.) The district court entered judgment
accordingly. This appeal by Stone Creek followed. (1
ER 1, 2.)
SUMMARY OF ARGUMENT
The district court’s findings of fact from the October 2015 bench trial, which this Court ratified in Stone
Creek I, dispose of Stone Creek’s remaining claims
against Omnia. Based on these factual findings, Stone
Creek could not and did not prove that Omnia willfully
infringed its mark. Simply stated, Omnia did not act
at Stone Creek’s expense, having neither exploited the
advantage of Stone Creek’s mark nor attempted to
gain the value of Stone Creek’s name. Because Omnia
did not act willfully, Stone Creek is not entitled to the
disgorgement of Omnia’s profits from the infringing
sales as a matter of law.
Even if Omnia acted willfully, however, Stone
Creek still is not entitled to an award of profits because
Omnia’s sales of the infringing products are not attributable to its infringement of the subject mark.
Stone Creek’s unfounded objections to Omnia’s survey
evidence do not change this result.
The judgment entered by the district court should
be affirmed in its entirety.
[19] STANDARD OF REVIEW
Stone Creek asks this Court to review the judgment
below under an erroneous standard. The applicable

App. 34
standard of review is not de novo, as Stone Creek misguidedly asserts. (Appellant’s Opening Brief (“AOB”),
at 6.) In Stone Creek I, this Court declined to rule on
Stone Creek’s claim that Omnia’s infringement of its
mark was willful as a matter of law because willfulness
is not a legal question. Stone Creek I, 875 F.3d at 442.
Rather, the determination of whether the infringement
was willful depends upon equitable considerations. Id.
at 441. An abuse of discretion standard of review therefore governs here because Stone Creek is asking this
Court to review how the district court selected among
equitable remedies for the infringement of its mark.
Grosz-Salomon v. Paul Revere Life Ins. Co., 237 F.3d
1154, 1163 (9th Cir. 2001) (“[w]hen a district court’s
remedy takes the form of an equitable order, we review
that order for an abuse of discretion”).
In this regard, the Court reviews the district
court’s denial of an award of the defendant’s profits under 15 U.S.C. § 1117 for an abuse of discretion. Rolex
Watch, U.S.A., Inc. v. Michel Co., 179 F.3d 704, 712 (9th
Cir. 1999); see also Skydive Arizona, Inc. v. Quattrocchi,
673 F.3d 1105, 1110 (9th Cir. 2012) (“Because of the
equitable discretion that district courts exercise over
monetary relief under the Lanham Act, we review such
rulings for abuse of discretion”); Sporty’s Farm L.L.C.
[20] v. Sportsman’s Mkt., Inc., 202 F.3d 489, 500 (2d Cir.
2000) (reviewing “findings of ‘willfulness’ by a district
court for clear error”).
Review of the district court’s application of the law
of the case doctrine likewise is for an abuse of discretion. Hall v. City of Los Angeles, 697 F.3d 1059,1067

App. 35
(9th Cir. 2012). An abuse of discretion results “ ‘when a
judge’s decision is based on an erroneous conclusion of
law or when the record contains no evidence on which
she rationally could have based that decision.’ ” Lindy
Pen Co. v. Bic Pen Corp., 982 F.2d 1400, 1405 (9th Cir.
1993), abrogated on other grounds by SunEarth, Inc. v.
Sun Earth Solar Power Co., 839 F.3d 1179 (9th Cir.
2016).
Finally, the Court reviews the district court’s decision to admit expert testimony for an abuse of discretion. United States v. Gadson, 763 F.3d 1189, 1202 (9th
Cir. 2014).
ARGUMENT
I.

The District Court’s Findings of Fact, Which
This Court Ratified in Stone Creek I, Constitute the Law of the Case.

Based on the well-settled law of the case doctrine,
no additional fact finding by the district court was necessary to adjudicate whether Omnia willfully infringed
Stone Creek’s mark and, if so, whether Omnia’s profits
are attributable to the infringement for purposes of a
disgorgement of profits remedy. Old Person v. Brown,
312 F.3d 1036, 1039 (9th Cir. 2002) (the law of the case
doctrine is “ ‘founded upon the sound public policy that
litigation must come to an end”). Under the law of the
case doctrine, [21] “a court is generally precluded from
reconsidering an issue that has already been decided
by the same court, or a higher court in the identical
case.” Thomas v. Bible, 983 F.2d 152, 154 (9th Cir.

App. 36
1993). The preclusive effect of this doctrine extends to
“matters of fact” and “questions of law,” as the United
States Supreme Court has long recognized:
It is a fundmental [sic] principle of jurisprudence, arising from the very nature of courts
of justice and the objects for which they are
established, that a question of fact or of law
distinctly put in issue and directly determined by a court of competent jurisdiction
cannot afterwards be disputed between the
same parties.
Frank v. Mangum, 237 U.S. 309, 333-34 (1915); see also
Bradley v. Duncan, 315 F.3d 1091, 1098 (9th Cir. 2002)
(quoting Frank); Lindy Pen, 982 F.2d at 1405 n.3 (“Intentional infringement is not at issue as the district
court’s initial conclusion that Bic’s infringement was
not intentional is law of the case and cannot be disturbed”). Law of the case applies when the matter at
issue was “ ‘decided explicitly or by necessary implication in [the] previous disposition.’ ” Milgard Tempering,
Inc. v. Selas Corp. of Am., 902 F.2d 703, 715 (9th Cir.
1990); see also Askins v. United States Dep’t of Homeland Sec., 899 F.3d 1035, 1042 (9th Cir. 2018) (“The doctrine applies most clearly where an issue has been
decided by a higher court; . . . ”).
The law of the case doctrine “is not a limitation on
a tribunal’s power, but rather a guide to discretion.”
United States v. Alexander, 106 F.3d 874, 876 (9th Cir.
1997). A court has discretion to deviate from the law of
the case only where: “(1) the first [22] decision was
clearly erroneous; (2) an intervening change in the law

App. 37
has occurred; (3) the evidence on remand is substantially different; (4) other changed circumstances exist;
[or] (5) a manifest injustice would otherwise result.”
Thomas, 983 F.2d at 155. “Failure to apply the doctrine
of the law of the case absent one of the requisite conditions constitutes an abuse of discretion.” Alexander,
106 F.3d at 876; see also Thomas, 983 F.2d at 155 (district court abused its discretion by not enforcing the
law of the case because none of the prerequisites for
departing from the doctrine existed).
Here, the district court had to look no further than
its own findings of fact from the October 2015 bench
trial to determine that Omnia did not willfully infringe
Stone Creek’s mark and that its profits were not attributable to the infringement. Not only did this Court
ratify these findings in Stone Creek I by instructing the
district court that it could use them without limitation
to decide the issues presented on remand, this Court
also expressly “credit[ed]” them in its analysis. Stone
Creek I, 875 F.3d at 436, 442. This Court did not disagree in any way with the findings themselves, but rather only with how the district court applied them to
conclude that Omnia did not infringe Stone Creek’s
mark. Id. at 436. Because this Court evaluated the district court’s findings of fact when it decided the merits
of Stone Creek I, the findings of fact fall squarely
within the law of the case doctrine. See Trent v. Valley
Elec. Ass’n, 195 F.3d 534, 537 (9th Cir. 1999).
[23] Under these circumstances, the district court
properly invoked its findings of fact, and did not depart
from them, in holding that Stone Creek failed to prove

App. 38
willfulness and that Stone Creek is not entitled to the
disgorgement of Omnia’s profits. To do otherwise, the
district court would have manifestly abused its discretion because no exception to the law of the case doctrine applies here. Alexander, 106 F.3d at 876; see also
Thomas, 983 F.2d at 155. The law of the case doctrine
exists to prevent precisely what Stone Creek purports
to accomplish on appeal, which is to re-litigate matters
that have already been fully and finally adjudicated
between the parties. No willful infringement occurred
here because, as the district court’s findings of fact establish, Omnia did not seek to exploit Stone Creek’s
mark or gain the value of its name. (1 ER 49-56, 59.)
The judgment below therefore should be affirmed in its
entirety.
II.

Stone Creek Is Not Entitled to the Disgorgement of Omnia’s Profits Because Omnia Did
Not Willfully Infringe Stone Creek’s Mark.
A. Disgorgement of Profits Is Not Available
As a Matter of Right.

Based on this Court’s holding in Stone Creek I that
Omnia infringed Stone Creek’s mark, the issue of
whether the disgorgement of Omnia’s profits was an
appropriate remedy stood “front and center on remand.” Stone Creek I, 875 F.3d at 439. Significantly, the
Lanham Act “confers a wide scope of discretion upon
the district judge in the fashioning of a remedy” for
trademark infringement. Maier Brewing Co. v. Fleischmann Distilling Corp., 390 F.2d 117, 121 (9th Cir.
1968); see [24] also Bandag, Inc. v. Al Bolser’s Tire

App. 39
Stores, Inc., 750 F.2d 903, 917 (Fed. Cir. 1984) (“Section
1117 confers a great deal of discretion on a district
court in fashioning a remedy for trademark infringement”). Potential remedies include an award of the
defendant’s profits as well as damages, costs, and injunctive relief. 15 U.S.C. § 1116(a) (injunctive relief );
15 U.S.C. § 1117(a) (profits, damages, and costs). A
monetary award of any kind, however, is not a matter
of right. See Break-Away Tours, Inc. v. British Caledonian Airways, 704 F. Supp. 178, 182 (S.D. Cal. 1988).
Contrary to Stone Creek’s suggestion otherwise,
the relief that it seeks—the disgorgement of Omnia’s
profits—is a classic example of a remedy that is not
available as a matter of right. (AOB 27.) Although an
award of the defendant’s profits is one of the monetary
remedies authorized by 15 U.S.C. § 1117, it “ ‘is not
automatic’ upon a finding of infringement.” Fifty-Six
Hope Rd. Music, Ltd. v. A.V.E.L.A., Inc., 778 F.3d 1059,
1073 (9th Cir. 2015). Rather, Congress has expressly
made the recovery of profits “subject to the principles
of equity.” 15 U.S.C. § 1117(a); see also Lindy Pen, 982
F.2d at 1405 (“an accounting of profits is not automatic
and must be granted in light of equitable considerations”).
When the plaintiff requests an award of profits, as
Stone Creek does here, “equity dictates that the plaintiff must show that the defendant’s infringing acts
were accompanied by some form of intent.” Stone Creek
I, 875 F.3d at 441. Specifically, to demonstrate an entitlement to an award of profits, the plaintiff must prove
that the [25] defendant’s infringement of trademark

App. 40
rights was “willful,” which “carries a connotation of deliberate intent to deceive.” Lindy Pen, 982 F.2d at 1406.
Even when willfulness has been shown, however, it
“ ‘may support an award of profits to the plaintiff, but
does not require one.’ ” Id. at 1406 n.4. This Court has
explained:
Equity has many reeds. A characteristic of it
is that one may not get all of the reeds. One
may get just enough relief to stop the evil
where it is apparent no great damage was
done to the complainant.
Highway Cruisers of Cal., Inc. v. Sec. Indus., Inc., 374
F.2d 875, 876 (9th Cir. 1967). Because Stone Creek
failed to prove that Omnia’s infringement of its mark
was willful, the district court properly denied Stone
Creek’s request for an award of profits and concluded
that a permanent injunction adequately protected
Stone Creek’s interests. (1 ER 5-13.)
Willfulness “ ‘require[s] a connection between a defendant’s awareness of its competitors and its actions
at those competitors’ expense.’ ” Lindy Pen, 982 F.2d at
1406. A remedy greater than an injunction, such as the
disgorgement of profits, is only available for trademark
infringement when the plaintiff proves that the defendant intended to “ ‘exploit the advantage of an established mark’ ” and “ ‘gain the value of an established
name of another.’ ” Id. at 1405, 1406; see also 1 ER 7
(the district court’ s determination that “[t]hese circumstances must be proven by a preponderance of
the evidence”). When the evidence does not establish
that the defendant sought to [26] capitalize on the

App. 41
plaintiff ’s goodwill, the infringement is not willful.
Lindy Pen, 982 F.2d at 1405-06. That is the situation
here, as the district court correctly held.
Under such circumstances, the disgorgement of
profits is barred because it would amount to a penalty against the defendant and a windfall in favor
of the plaintiff in contravention of the Lanham Act.
TrafficSchool.com, Inc. v. Edriver Inc., 653 F.3d 820,
831 (9th Cir. 2011) (“The Lanham Act allows an award
of profits only to the extent the award ‘shall constitute
compensation and not a penalty’ ”); see also 15 U.S.C.
§ 1117(a) (an award of profits “shall constitute compensation and not a penalty”); Spin Master, Ltd. v.
Zobmondo Entm’t, LLC, 944 F. Supp. 2d 830, 848-49
(C.D. Cal. 2012) (“Disgorging the infringer’s significant
profits without proof of trading off the mark holder’s
goodwill would still amount to a penalty to the infringer and a windfall to the trademark holder . . . even
if the infringer’s conduct was otherwise intentional”).
B. The District Court’s Findings of Fact
from the Bench Trial That Preceded
Stone Creek I Establish Omnia’s Lack of
Willfulness.
This Court “affirm[ed] the district court’s conclusion that willfulness remains a necessary condition
for a disgorgement of profits” in Stone Creek I, “but remand[ed] for a determination on whether Omnia had
the requisite intent.” Stone Creek I, 875 F.3d at 444. In
doing so, the Court invited the district court to decide

App. 42
this issue based on the “factual findings that the [district] court has already made—including those on Omnia’s intent in selecting and using the STONE CREEK
mark” because they “may [27] be relevant to willfulness.” Id. at 442. The district court determined that its
factual findings from the October 2015 bench trial that
preceded Stone Creek I were sufficient to decide
whether an award of Omnia’s profits was an appropriate remedy, and Stone Creek did not argue otherwise.
Indeed, neither party asked the district court to consider new evidence beyond that previously presented
to the trial. Instead, Stone Creek erroneously contends
that the district court misapplied its earlier factual
findings. By their plain terms, however, these findings
establish that Omnia did not willfully infringe Stone
Creek’s mark. (1 ER 49-56, 59.)
Finding of fact number fifty-seven, in which the
district court determined that “Omnia did not choose
the mark with the intent of trading off of Stone Creek’s
goodwill”—and which again, this court credited in
Stone Creek I—is dispositive. (2 ER 54.) Because Omnia did not intend to trade off of Stone Creek’s goodwill
when it chose the subject mark, it is axiomatic that
Omnia neither exploited “the advantage of an established mark” nor attempted “to gain the value of an
established name of another.” Lindy Pen, 982 F.2d at
1405, 1406. No further inquiry was necessary, as this
Court previously explained:
Our decisions regarding an award of profits
emphasize the importance of willfulness in
the analysis. ‘Indeed, this court has cautioned

App. 43
that an accounting is proper only where the
defendant is attempting to gain the value of
an established name of another.’ Defendant
was not trading off Plaintiff ’s name. Defendant’s infringement was not willful. The district court did not abuse its discretion by
denying Plaintiff ’s motion for an award of
profits.
[28] HydraMedia Corp. v. Hydra Media Group, Inc.,
392 F. App’x 522, 523 (9th Cir. 2010) (citations omitted). Thus, on this basis alone, the district court
properly held that Omnia’s infringement of Stone
Creek’s mark was not willful.
Many of the district court’s other findings of fact,
based on the evidence presented at trial, reinforce this
conclusion. These factual findings include:
2.

Stone Creek is a company that manufactures and sells furniture in Arizona.

11. Stone Creek follows the typical retail furniture business model, selling its furniture locally in the Phoenix area.
12. Stone Creek delivers furniture locally but
does not ship furniture out of state.
13. Stone Creek has a website, but does not
sell furniture directly through its website. It does not engage in internet sales.
14. Stone Creek operates five showrooms in
the Phoenix, Arizona area.
18. The parties’ distinct trading territories
are separated by over 1000 miles at their

App. 44
closest points and nearly 2000 miles at
their furthest.
23. Stone Creek’s marketing channels existed only within the State of Arizona
during the relevant time period.
24. Stone Creek did not target advertising or
marketing at the BTTT during the relevant time period.
29. The website has not created awareness of
Stone Creek in the BTTT.
32. Consumers in the BTTT are not aware of
Stone Creek Furniture.
47. Bon-Ton did not want to sell Omnia’s furniture under the “Omnia brand,” it
wanted a private label—i.e. a name other
than Omnia to avoid competition with
Omnia’s other customers.
[29] 48. After Omnia and Bon-Ton agreed
that Omnia would become Bon Ton’s supplier of leather furniture, Bon Ton indicated that it would like a label with an
“American made name.”
49. Omnia’s president offered several suggestions, including STONE CREEK.
50. Bon Ton decided to market some of its furniture under the STONE CREEK name.
51. Bon Ton’s decision to use Omnia as a supplier was not tied to nor conditioned on
the use of the STONE CREEK mark.

App. 45
56. Omnia selected the STONE CREEK
mark for Bon-Ton’s private label, in part,
because it sounded American and because marketing materials and a logo
were already prepared.
61. Omnia’s president since 2004, Peter
Zolferino, having been in the furniture
business and having done business with
Stone Creek, understood that Stone
Creek sold in the Phoenix area, but he
never researched where Stone Creek sold
its furniture.
62. Omnia never performed an internet or
other documentary search to determine
where or how Stone Creek sold its furniture.
63. Omnia never asked where Stone Creek’s
customers were located prior to using the
mark.
64. Omnia never performed any internet or
documentary searches to determine
where Stone Creek’s customers were located.
65. Omnia adopted and used the STONE
CREEK mark with full knowledge of
Stone Creek’s senior use.
(1 ER 49-54.)
Like finding of fact number fifty-seven, these numerous additional factual findings confirm that Omnia
did not seek to exploit Stone Creek’s mark or gain
the value of its name. Instead, they demonstrate that

App. 46
Omnia chose the mark solely because [30] Bon-Ton
wanted a private label with a name that sounded
American as well as marketing materials and a logo
that already existed. Omnia plainly did not intend to
trade off of Stone Creek’s goodwill, as the district court
found, given that Stone Creek had no goodwill in the
BTTT, Omnia did not research where Stone Creek sold
furniture before using Stone Creek’s mark, and BonTon entered into its agreement with Omnia without regard to whether the Stone Creek mark would be used.
(1 ER 7, 49-54.) Stone Creek did not even have brand
awareness in the BTTT, despite having operated a
website, because it did not advertise, market, or manufacture its products in that region during the relevant
period. Rather, Stone Creek followed the typical retail
furniture business model by selling its furniture locally in the Phoenix, Arizona area. (1 ER 7, 49-52.)
Thus, the district court’s findings of fact offer no support to Stone Creek’s notion that Omnia willfully infringed its mark.2

2

Although the district court found that Stone Creek had
$610,384.44 in sales in the BTTT, which represented approximately 0.3 percent of its more than $200 million in sales since its
inception, such sales were “trivial.” (1 ER 53.) These sales do not
constitute goodwill because “[t]here is no evidence as to how any
of the approximate 150 customers from the BTTT came to know
of Stone Creek or why any customer from the BTTT purchased
from Stone Creek.” (Id.) Contrary to Stone Creek’s notion otherwise, this Court’s reference to these sales in evaluating the “convergence of marketing channels” factor of the Sleekcraft
likelihood of confusion analysis does not suggest that Stone Creek
had any goodwill in the BTTT. The district court’s factual

App. 47
[31] C. Stone Creek’s Reliance on Sleekcraft’s “Intent” Factor Is Misplaced Because It Is Irrelevant to Whether Omnia’s
Infringement of the Stone Creek Mark
Was Willful.
Stone Creek erroneously maintains that it can
bootstrap this Court’s holding in Stone Creek I that
Omnia infringed its mark into a determination that
Omnia did so willfully. (AOB 13.) Specifically, Stone
Creek posits that this Court’s “finding that Omnia intended to deceive customers establishes willful infringement.” (Id.) In doing so, however, Stone Creek
overlooks that different legal principles govern the determination of: (1) whether trademark infringement
occurred and, if so, (2) whether the infringement was
willful. Decisive here are the differences in the burdens
of proof that apply in each of these contexts.
This Court held that Omnia infringed Stone
Creek’s mark based on its application of the Sleekcraft
factors, which have long guided the likelihood of confusion analysis in trademark infringement actions. Stone
Creek I, 875 F.3d at 431. One of these factors is the defendant’s intent in selecting the allegedly infringing
mark, which is the factor Stone Creek primarily relies
upon here. Id. at 434-35; Sleekcraft, 599 F.2d at 349.
When the Sleekcraft Court promulgated these factors,
it expressly distinguished between intent for purposes
of an infringement inquiry and intent for purposes of
findings, as ratified by this Court, demonstrate that Stone Creek
had no goodwill in the BTTT. (1 ER 49-61.)

App. 48
devising an appropriate remedy after infringement
has been found:
When the alleged infringer knowingly adopts
a mark similar to another’s, reviewing courts
presume that the defendant can accomplish
[32] his purpose: that is, that the public will
be deceived. Good faith is less probative of the
likelihood of confusion, yet may be given considerable weight in fashioning a remedy.
Sleekcraft, 599 F.2d at 354 (emphasis added) (citations
omitted). As a result, when assessing whether infringement occurred, courts must presume that the alleged
infringer intended to deceive by adopting a protected
mark without regard to its good faith. Id. Unless the
alleged infringer successfully rebuts this presumption,
“its deceptive intent is ‘entitled to great weight’ in the
ultimate determination of likelihood of confusion.”
Stone Creek I, 875 F.3d at 435.
By contrast, no presumed intent to deceive applies
at the remedial stage, which is the current posture of
this case, even when the infringer may have known
that it was adopting a protected mark. Id. Instead, the
burden shifts to the plaintiff to prove its entitlement
to the requested remedy, such as the disgorgement of
profits sought by Stone Creek. See Stone Creek I, 875
F.3d at 442 (“a plaintiff can secure the defendant’s
profits only after establishing willfulness . . . ”). The legal and factual basis on which this Court found infringement in Stone Creek I therefore has no bearing
on whether Omnia acted with the willfulness required
to render the disgorgement of profits an appropriate

App. 49
remedy. See 4 J. Thomas McCarthy, McCarthy on
Trademarks and Unfair Competition, § 23:113 (4th ed.
2017) (explaining that “an ‘intent’ sufficient to support,
along with other evidence, a finding of a likelihood of
confusion may not be sufficiently egregious to permit a
recovery of profits” and that “there is a [33] considerable difference between an intent to copy and an intent
to deceive”). Omnia’s good faith is also relevant at this
stage of fashioning a remedy. Sleekcraft, 599 F.2d at
354.
Reaffirming the burden of proof, this Court held in
Stone Creek I that “the district court properly ruled
that Stone Creek must show intentional or willful infringement before disgorgement of Omnia’s profits
could be awarded.” Stone Creek I, 875 F.3d at 442. No
matter how stridently Stone Creek argues otherwise,
it failed to meet this burden because the district court’s
findings of fact confirm that Omnia did not act with the
intent to exploit the advantage of Stone Creek’s mark
or to trade off of Stone Creek’s goodwill. Lindy Pen, 982
F.2d at 1405, 1406. Willfulness does not exist as a matter of law where, as here, the plaintiff is unable to
make such a showing. Id.
Stone Creek cannot escape this conclusion compelled by the established facts and applicable law by
asserting that the district court should have inferred
that Omnia’s infringement was willful based on its
knowledge of Stone Creek’s rights in the subject mark

App. 50
and purported failure to exercise due care.3 (AOB 1622.) Not only has this Court never held that willfulness
can be inferred, it necessarily rejected such a [34] notion in this case when it ordered that Stone Creek
must show willfulness as a prerequisite to its recovery
of Omnia’s profits. See Stone Creek I, 875 F.3d at 442;
see also McCarthy on Trademarks and Unfair Competition, § 23:115 (“mere knowledge of a senior use of a
mark is not in and of itself persuasive evidence of an
intent to confuse”). It is well-settled that a party may
have known “what it was doing” without acting willfully. Highway Cruisers, 374 F.2d at 876.
Moreover, Stone Creek’s misplaced reliance on the
Sleekcraft intent factor is further demonstrated by its
erroneous assertion that Omnia’s failure to conduct a
trademark search constituted a lack of due care that
requires an inference of willfulness. (AOB 20-22.) This
Court recently found that the failure to conduct a reasonably adequate trademark search could be relevant
to an alleged infringer’s intent when it assessed the
likelihood of confusion under a Sleekcraft analysis, but
not for purposes of determining whether an infringer
had acted with the willfulness required to support the
disgorgement of profits. See Marketquest Group, Inc. v.
3

Stone Creek makes the related assertion that Omnia infringed Stone Creek’s mark “in the face of potential warnings.”
(AOB 20.) Not only should the Court disregard this assertion because Stone Creek has cited no evidence of “potential warnings,”
the Court’s holding that Stone Creek must prove willfulness to
recover profits confirms that Omnia’s prior knowledge that the
mark belonged to Stone Creek is inconsequential to the willfulness inquiry. See Stone Creek I, 875 F.3d at 442.

App. 51
BIC Corp., 862 F.3d 927, 934-35 (9th Cir. 2017). Consequently, the district court properly concluded that the
failure to conduct a trademark search may amount to
carelessness, but it has no relevance to the determination of whether the infringement of a mark was willful.
1 ER 8-9; see also George & Co., LLC v. Imagination
Entm’t Ltd., 575 F.3d 383, 398 (4th Cir. 2009) (“the failure to conduct a trademark search or contact counsel
shows carelessness at most, but is in any event irrelevant because knowledge of [35] another’s goods is not
the same as an intent ‘to mislead and to cause consumer confusion’ ”).
The inapposite case law relied on Stone Creek cannot salvage its inference theory. (AOB 16-17). For example, in Fifty-Six Hope Road Music, 778 F.3d at 1074,
the Court found willfulness because, unlike here, the
evidence established that the defendant acted at its
competitors’ expense. In this case, by contrast, Omnia
did not intend to exploit the advantage of Stone
Creek’s mark or attempt to gain the value of its name.
The district court expressly found that Omnia did not
choose Stone Creek’s mark with the intent of trading
off of Stone Creek’s goodwill. (1 ER 54.)
Stone Creek also relies upon Brookfield Communications, Inc. v. West Coast Entertainment Corp., 174
F.3d 1036, 1059, 1066-67 (9th Cir. 1999), but in that
case, the disgorgement of profits was not at issue. Rather, unlike here, the Court considered whether the
likelihood of confusion had been established under the
Sleekcraft factors to support the entry of a preliminary
injunction.

App. 52
Likewise, in Fleischmann Distilling Corp. v. Maier
Brewing Co., 314 F.2d 149, 157 (9th Cir. 1963), the
Court found willfulness because, unlike here, the
holder of the subject mark was one of the most popular
brands in the market. Because of the brand’s popularity, the only possible reason for the infringement was
to trade off of the holder’s goodwill. Here, by contrast,
the evidence established that Omnia did not choose the
subject mark with the intent of trading off of Stone
Creek’s goodwill as [36] well as that Stone Creek did
not even have goodwill in the BTTT that Omnia could
have exploited.4 (1 ER 54, 56.)
In sum, this Court plainly would not have remanded this case to the district court to determine
whether Omnia had the requisite intent when it infringed Stone Creek’s mark if willfulness could have
been presumed or inferred based upon the record submitted to this Court in Stone Creek I. If that were the
case, there would have been no reason for this Court to
have remanded that question and this Court could
have found as a matter of law in Stone Creek I that
Omnia was a willful infringer. But this Court did
4

Similarly misplaced is Stone Creek’s reliance on an unpublished order entered in Contessa Food Products, Inc. v. Lockpur
Fish Processing Co., No. CV 98-8212 NM (SHX), 2001 U.S. Dist.
LEXIS 25998, at *20-26 (C.D. Cal. Nov. 26, 2001), where the district court rejected the plaintiff ’s request for an inference of willfulness, determined that the plaintiff failed to prove willfulness,
and denied an award of profits because the plaintiff had “adduced insufficient evidence that [the defendant] intentionally
‘exploit[ed] the advantage of an established mark.’ ” The district
court concluded that the plaintiff ’s “argument for a lower standard of intentionality fails.” Id. at *23.

App. 53
remand that question and the district court determined, in part applying the prior factual findings, that
Stone Creek was not entitled to the disgorgement of
Omnia’s profits. The district court held that Stone
Creek was unable to demonstrate willful infringement
under the applicable legal standard. The judgment below should be affirmed.
[37] III. Stone Creek Is Not Entitled to the Disgorgement of Omnia’s Profits Because the
Infringing Sales Were Not Attributable to
Omnia’s Infringement.
Even if Omnia’s infringement of Stone Creek’s
mark had been willful, Stone Creek is not entitled to
an award of Omnia’s profits because the profits are
not attributable to the infringement. For a plaintiff to
establish a claim to the defendant’s profits from the
infringement of its trademark, it must “prove defendant’s sales.” 15 U.S.C. § 1117(a). “Once the plaintiff
demonstrates gross profits, they are presumed to be
the result of the infringing activity.” Lindy Pen, 982
F.2d at 1408. The burden then shifts to the defendant
to prove “which, if any, of its total sales are not attributable to the infringing activity, and, additionally, any
permissible deductions for overhead.” Id.; 15 U.S.C.
§ 1117(a) (“defendant must prove all elements of cost
or deduction claimed”). The accounting contemplated
by section 1117 “is intended to award profits only on
sales that are attributable to the infringing conduct.”
Lindy Pen, 982 F.2d at 1408.

App. 54
Like Stone Creek’s claim that Omnia willfully infringed its mark, the district court’s factual findings
from the October 2015 bench trial dispose of Stone
Creek’s claim that Omnia’s profits are attributable to
the infringement. The parties stipulated that Omnia’s
gross sales of the infringing products totaled $4,455,352,
which shifted the burden to Omnia to prove that such
sales were not attributable to its infringement. (1 ER
9, 56.) Omnia satisfied this burden by establishing that
the sales were not [38] consummated because customers perceived an association between Stone Creek and
the infringing products. (1 ER 9-10.) Instead, as the
district court found, Omnia’s evidence established
that: (1) “[c]onsumers in the BTTT are not aware of
Stone Creek Furniture”; (2) Stone Creek’s “website
has not created awareness of Stone Creek in the
BTTT”; (3) “Stone Creek had no brand awareness in
the BTTT”; (4) “Omnia did not choose the mark with
the intent of trading off of Stone Creek’s goodwill”; and
(5) “Stone Creek’s trademark did not earn any goodwill, reputation, or consumer recognition in the BTTT.”
(1 ER 52, 54, 56.) Given these factual findings, Omnia’s
profits plainly could not have been the result of its use
of Stone Creek’s mark because essentially no one in the
BTTT knew about Stone Creek.
Equally unavailing to Stone Creek is its attempt
to diminish the effect of the testimony of Omnia’s intellectual property expert, Doug Bania, which established that Omnia’s sales of the infringing products
were not attributable to its infringement of the Stone
Creek mark. Not only is Mr. Bania an expert in the

App. 55
valuation of intellectual property, he has been engaged
in this profession for over thirteen years and has been
retained as an expert over twenty-five times. (SER 5154.) To prepare for his testimony, Mr. Bania reviewed
legal authority and the depositions of all relevant parties as well as conducted research on the couch and
furniture industry. (SER 55-57.) Mr. Bania testified
that many factors play a role in the purchase of a sofa:
But the retailer really plays a big part of the
reason why someone buys a sofa, you know;
a good reputation. Maybe the somebody’s parents had [39] shopped there before and bought
there before; within one hour’s drive. The
store needs to be nearby because these retail
stores will deliver furniture in a certain territory so you want to live close enough in order
to get that typically free delivery service.
Product quality, a wide production selection,
competitive prices; sales people that aren’t
necessarily hovering around you thinking you
are going to steal a sofa, but they are there to
answer questions and they are knowledgeable.
(SER 58-59.)
Mr. Bania further testified that various other factors promote sales, including price, quality, durability,
style, and design:
A. Based on, you know, my analysis, the
Cowan report, and the depositions I reviewed, and even the fact that the name
was changed to Red Canyon later on
down the line, showed me that consumers

App. 56
are not purchasing these sofas from BonTon because of the Stone Creek mark.
Q. So is it your opinion that there’s no revenue at all that was generated by these
sales that is attributable in any way to
the plaintiff ’s trademark?
A. That’s correct.
Q. That’s your opinion?
A.

Yes.

(SER 60-61.)
In addition to Mr. Bania’s testimony, Omnia presented the compelling testimony of its president, Peter
Zolferino, which established that sales stayed the same
after Omnia changed the name on the infringing products to Red Canyon:
Q. In review of your financial records, have
you noted if that name change had any
negative impact on the sales of Omnia to
Bon-Ton?
[40] A.

No changes or negative impact.

(SER 81.) Thus, Omnia’s sales of the infringing products plainly were not attributable to the infringement.
Unable to overcome this conclusion, Stone Creek
digresses into an irrelevant discussion of apportionment of profits and seeks to re-litigate matters relating
to confusion. (AOB 23-26.) The ability to apportion profits between infringing and non-infringing elements of
a product is not at issue in this case. Moreover, merely

App. 57
because Stone Creek had been contacted regarding
product options, store locations, and warranty issues
does not demonstrate that any sales of the infringing
products were attributable to the subject mark. The
evidence established, as confirmed by the district
court’s findings of fact, that customers purchased the
infringing products for reasons totally unrelated to the
perception of an association with Stone Creek. On this
basis, Stone Creek is not entitled to the disgorgement
of any profits, as the district court properly held. See
Maier Brewing Co., 390 F.2d at 124; Mishawaka Rubber & Woolen Mfg. Co. v. S. S. Kresge Co., 316 U. S. 203,
206 (1942) (“The plaintiff of course is not entitled to
profits demonstrably not attributable to the unlawful
use of his mark”).
IV. Stone Creek Is Not Entitled to the Disgorgement of Omnia’s Profits Because It
Waived Its Objection to the Calculation of
Such Profits.
It is well-settled that “an issue is waived when the
appellant does not specifically and distinctly argue the
issue in his or her opening brief.” United States v.
Kama, 394 F.3d 1236, 1238 (9th Cir. 2005). Contrary to
this rule, Stone Creek merely [41] asserts that Omnia
“failed to satisfy” its burden to establish all costs and
deductions that it claimed should be deducted from
gross revenue to determine lost profits. (AOB 27.)
Stone Creek provides no explanation as to how Omnia’s
evidence was lacking. This failure by Stone Creek to
provide a specific and distinct argument in its opening

App. 58
brief constitutes a clear and unmistakable waiver of
this issue.
In any event, Stone Creek’s premise is wrong because it overlooks the trial testimony of Omnia’s financial expert, Henry Kahrs, who is a certified public
accountant and licensed to perform business valuations. (SER 62-66.) With more than thirty years of
experience in this field, Mr. Kahrs computed Omnia’s
profits from the infringing sales guided by the principles set forth in Frank Music Corp. v. MetroGoldwynMayer, Inc., 772 F.2d 505 (9th Cir. 1985). Based on his
analysis, Mr. Kahrs determined that Omnia’s net profits on the sales of the infringing products were
$230,850. (SER 67-79.)
V.

The District Court Did Not Abuse Its Discretion in Admitting the Testimony of Dr.
Charles Cowan, Omnia’s Survey Expert,
Because Stone Creek’s Rule 26 and Hearsay Objections Have No Merit.

Stone Creek argues the trial court abused its discretion in admitting testimony and survey prepared by
Charles Cowan, Omnia’s survey expert, because of an
alleged failure to comply with Rule 26 of the Federal
Rules of Civil Procedure and for hearsay reasons. (AOB
28-32.) This Court should summarily reject this issue
because: (1) in Stone Creek I, this Court ratified the
district court’s findings of fact, which included [42] factual findings based on Dr. Cowan’s survey evidence
[Stone Creek I, 875 F.3d at 436, 442; 1 ER 52]; and (2)

App. 59
Stone Creek abandoned this issue by failing to assert
it in the district court on remand. Morris v. Ylst, 447
F.3d 735, 738 n.2 (9th Cir. 2006). If the Court nevertheless considers this issue, it will find that this issue has
no merit.
Stone Creek argues that Dr. Cowan’s survey
should be excluded because he failed to produce the
402 underlying surveys that formed the foundation of
his opinions. Stone Creek claims this alleged concealment allowed Dr. Cowan to manipulate data and prevented Stone Creek from rebutting the manipulation.
(AOB 29.) This accusation is meritless. As pointed out
by Omnia in response to motions in limine and in several emails, Omnia provided Stone Creek with the 402
surveys multiple times. (SER 82-91.) On December 13,
2013, Omnia served on Stone Creek Dr. Cowan’s expert
report, a disc that contained documents bates marked
CDC001-0213, three Excel files, and a copy of the electronic data used by Dr. Cowan in forming his opinion.
All facts and data used by D r. Cowan in forming his
opinion were provided to Stone Creek. (SER 84-85.)
Additionally, Omnia explained that Dr. Cowan
uses a third-party vendor to conduct the online surveys
he designs, and the vendors do not provide Dr. Cowan
with the names or addresses of any of the participants,
nor do they give Dr. Cowan a single “survey” for each
participant. (SER 84.) Rather, they provide Dr. Cowan
with a file that is viewable in the industry standard
SPSS program. This file contains all of the [43] underlying survey responses and data. Omnia gave this file
to Stone Creek on December 13, 2013, and again on

App. 60
December 20, 2013. (Id.) On September 4, 2015, after
Stone Creek informed Omnia it was moving to exclude
the survey because it did not have the underlying survey responses, Omnia again forwarded Stone Creek a
copy of the SPPS file, which contained all of the underlying data D r. Cowan obtained from his survey. (SER
84-85.) When Stone Creek’s counsel could not open the
file, Omnia’s counsel exported the SPSS file as a Microsoft Excel file. (SER 85.) Accordingly, any claim that
Stone Creek did not have the underlying survey data
is inaccurate.
Next, Stone Creek argues Dr. Cowan’s survey was
hearsay. (AOB 31-32.) The Ninth Circuit has routinely
held that surveys are admissible evidence and has
never conditioned such on proof that the names and
addresses of the survey participants be disclosed.
Potts v. Zettel, 220 F. App’x 559, 561 (9th Cir. 2007);
Prudential Ins. Co. v. Gibraltar Fin. Corp., 694 F.2d
1150, 1156 (9th Cir. 1982). While Stone Creek is correct
that surveys are considered by the Ninth Circuit to be
admissible under the residual hearsay exception,
Stone Creek fails to note that surveys are also admissible as present sense impressions. See Potts, 220 F.
App’x at 561-62 (“We also agree that the surveys were
not inadmissible hearsay, because they fall within the
hearsay exception in Federal Rule of Evidence 803(1),
for present sense impressions of the declarant”) (citing
Fla. Bar v. Went For It, Inc., 515 U.S. 618, 626-27
(1995)).
[44] Despite the clear line of authority in the
Ninth Circuit on this point, Stone Creek cites to Third

App. 61
Circuit authority—Pittsburgh Press Club v. United
States, 579 F.2d 751 (3d Cir. 1978)—as somehow supporting its position. (AOB 31.) Pittsburgh Press does
not, however, support Stone Creek’s position. Rather, it
demonstrates that surveys and hearsay polls are not
necessarily inadmissible, and can fall within the present sense impression and state of mind exceptions to
the hearsay rule. Additionally, “[u]nder Rule 803(24) [
now Federal Rule of Civil Procedure 807], the survey is
admissible if it is material; if it is more probative on
the issue than any other evidence; and if it has circumstantial guarantees of trustworthiness equivalent to
those of the class exceptions. . . .” Id. at 757-58.
Finally, while Stone Creek’s critiques of Dr. Cowan
and his survey are meritless, a survey’s “[t]echnical unreliability goes to the weight accorded the survey, not
its admissibility.” Prudential Ins. Co., 694 F.2d at 1156;
M2 Software, Inc. v. Madacy Entm’t, 421 F.3d 1073,
1087 (9th Cir. 2005) (“follow-on issues of methodology,
survey design, reliability, the experience and reputation of the expert, critique of conclusions, and the like
go to the weight of the survey rather than its admissibility.”).
A district court’s exclusion of a trademark survey
due to unreliability often creates reversible error, as
the Ninth Circuit has stood firm that such discrepancies should be evaluated by the fact-finder. See Wendt
v. Host Int’l, Inc., 125 F.3d 806, 814 [45] (9th Cir. 1997).
Thus, issues relating to potentially leading survey
questions or improperly limited geographic area in
which the survey was conducted only go to the survey’s

App. 62
overall value. “Unlike novel scientific theories, a jury
should be able to determine whether asserted technical deficiencies undermine a survey’s probative
value.” Southland Sod Farms v. Stover Seed Co., 108
F.3d 1134, 1143 n.8 (9th Cir. 1997). Here, the district
court heard all of Stone Creek’s complaints, listened to
testimony from Stone Creek’s rebuttal expert, and
weighed Dr. Cowan’s survey accordingly. The district
court did not err in considering Dr. Cowan’s testimony.
CONCLUSION
For the foregoing reasons, Omnia respectfully requests that this Court affirm, in its entirety, the final
judgment entered by the district court.
DATED:
LEWIS BRISBOIS BISGAARD &
December 7, 2018 SMITH LLP
By: /s/ Jeffry A. Miller
Daniel C. DeCarlo
Jeffry A. Miller
Scott M. Schoenwald
Attorneys for Defendant-Appellee
OMNIA ITALIAN DESIGN, INC.

[Certificate Of Compliance Omitted]
[Statement Of Related Cases Omitted]
[Certificate Of Service Omitted]

App. 63
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Stone Creek Incorporated,
Plaintiff,
v.
Omnia Italian Design
Incorporated, et al.,

NO. CV-13-00688-PHXDLR
JUDGMENT IN A
CIVIL CASE
(Filed Apr. 30, 2018)

Defendants.
Decision by Court. This action came for consideration before the Court. The issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that pursuant
to the Court’s Order filed April 30, 2018, judgment is
entered in favor of Plaintiff Stone Creek Incorporated
and against Defendant Omnia Italian Design Incorporated for permanent injunction. Defendant Omnia
Italian Design Incorporated, as well as its parents,
subsidiaries, owners, directors, officers, assigns, successors, employers shall be permanently enjoined from
using Plaintiff Stone Creek Incorporated marks, or
any other mark confusingly similar. Plaintiff Stone

App. 64
Creek Incorporated is not entitled to disgorgement of
profits.
Brian D. Karth
District Court Executive/
Clerk of Court
April 30, 2018
s/ D. Draper
By Deputy Clerk

App. 65
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Stone Creek Incorporated,
Plaintiff,

No. CV-13-00688-PHXDLR

v.

ORDER

Omnia Italian Design
Incorporated, et al.,

(Filed Apr. 12, 2018)

Defendants.
Plaintiff Stone Creek Incorporated (“Stone Creek”),
an Arizona furniture manufacturer, accused Defendant Omnia Italian Design Incorporated (“Omnia”) of
infringing its trademark by selling furniture labeled
with Stone Creek’s mark to The Bon-Ton Stores Incorporated (“Bon Ton”), which in turn sold them to customers in Bon Ton’s trading territory (“BTTT” or
“Territory”).1 In October 2015, the Court presided over
a four-day bench trial. At its conclusion, the Court
issued its findings of fact and concluded that Omnia
did not infringe Stone Creek’s mark because its use of
the mark was unlikely to cause confusion. (Doc. 175.)
Stone Creek appealed.
On appeal, the Ninth Circuit explicitly credited
this Court’s factual findings, but determined that the
1

The BTTT consists of all areas within 200 miles of a Bon
Ton furniture gallery. (Doc. 175 ¶ 17). The Territory includes portions of Iowa, Indiana, Ohio, Wisconsin, Pennsylvania, Illinois,
and Michigan. (Id.)

App. 66
Court erred in its application of the law—specifically,
the Sleekcraft factors, which guide the likelihood of
confusion inquiry. Stone Creek, Inc. v. Omnia Italian
Design, Inc., 875 F.3d 426, 436 (9th Cir. 2017); AMF Inc.
v. Sleekcraft Boats, 599 F.2d 341, 348-49 (9th Cir. 1979).
The Ninth Circuit determined that this Court’s factual
findings compelled the conclusion that Omnia’s use of
the Stone Creek mark is likely to cause confusion and,
therefore, that Omnia is liable for trademark infringement. Stone Creek, 875 F.3d at 436, 444. Accordingly,
the Ninth Circuit remanded the matter to this Court
for the purpose of determining what remedies, if any,
Stone Creek is entitled to given Omnia’s liability for
infringement. More specifically, the Ninth Circuit directed the Court to determine “whether Omnia had
the requisite intent” to justify disgorgement of profits.
Id. at 444.
Where, as here, a defendant is found liable for
trademark infringement, a court may award the prevailing plaintiff (1) the defendant’s profits, (2) the damages sustained by the plaintiff, (3) the costs of the
action, and/or (4) injunctive relief. 15 U.S.C. § 1117(a);
La Quinta Worldwide LLC v. Q.R.T.M., S.A. de C.V.,
762 F.3d 867, 879 (9th Cir. 2014). Stone Creek seeks
only disgorgement of profits and a permanent injunction. The Court therefore confines its analysis to
those two remedies. Moreover, because the Ninth Circuit explicitly credited the Court’s factual findings and
remanded solely for the purpose of determining
whether those facts justify the remedies Stone Creek
seeks, the Court’s legal analysis is based on those

App. 67
undisturbed facts. (Doc. 175 ¶¶ 1-85); See MendezGutierrez v. Gonzales, 444 F.3d 1168, 1172 (9th Cir.
2006) (explaining that the district court is limited by
the appellate court’s remand in situations where the
scope of the remand is clear).
I.

Omnia Did Not Willfully Infringe

Disgorgement of profits is permitted “only in those
cases where the infringement is willfully calculated to
exploit the advantage of an established mark” or
“where the defendant is attempting to gain the value
of an established name of another.” Lindy Pen Co. v.
Bic Pen Corp., 982 F.2d 1400, 1405-06 (9th Cir. 1993)
(internal quotation and citations omitted). “Willful infringement carries a connotation of deliberate intent
to deceive,” and “requires a connection between a defendant’s awareness of its competitors and its actions
at those competitors’ expense.” Fifty-Six Hope Rd.
Music, Ltd. v. A.V.E.L.A., Inc., 778 F.3d 1059, 1074 (9th
Cir. 2015) (internal quotations and citations omitted).
These circumstances must be proven by a preponderance of the evidence.2
2

Circuit courts are divided on the appropriate evidentiary
standard. Compare Versa Prods. Co. v. Bifold Co. (Mfg.) Ltd., 50
F.3d 189, 207-08 (3d Cir. 1995) (applying clear and convincing
standard), with Fishman Transducers, Inc. v. Paul, 684 F.3d 187,
193 (1st Cir. 2012) (applying preponderance of the evidence
standard); Harrods Ltd. v. Sixty Internet Domain Names, 302
F.3d 214, 226-27 (4th Cir. 2002) (same). The First Circuit in Fishman makes a compelling case for applying the preponderance of
the evidence standard: “Fraud, a cousin of willfulness, has an historical association with the clear and convincing standard but the

App. 68
Omnia did not willfully infringe on Stone Creek’s
mark because “Omnia did not choose the mark with
the intent of trading of Stone Creek’s goodwill.” (Doc.
175 ¶ 57.) Instead, “Omnia selected the STONE
CREEK mark for Bon Ton’s private label, in part, because it sounded American and because marketing
material and a logo were already prepared.” (¶ 56.)
Moreover, Omnia did not intend to trade on Stone
Creek’s goodwill in Bon Ton’s trading territory because
Stone Creek had no goodwill in that territory, and Omnia did not research where Stone Creek sold its furniture prior to using the mark. (¶¶ 2, 11-14, 23, 24, 29,
32, 35, 39, 61.) Although Stone Creek operated a website, it neither sold furniture through that website nor
delivered furniture out of state, and the website did not
create awareness of the brand in the BTTT. (¶¶ 13, 29.)
Relying on Fleishmann Distilling Corp. v. Maier
Brewing Co., 314 F.2d 149, 157 (9th Cir. 1963), Stone
Creek argues that Omnia’s deliberate adoption of an
identical mark with knowledge of Stone Creek’s senior
use compels the conclusion that Omnia willfully infringed. (Doc. 197 at 6-8.) Fleishmann, however, is distinguishable. In that case, it was undisputed that the
senior user’s mark was well-known in the relevant
modern tendency in the Supreme Court is to reserve the clear and
convincing burden, unless dictated by statute, for matters with
constitutional implications like civil commitment.” Fishman, 684
F.3d at 192. Because § 1117 of the Lanham Act does not prescribe
a different, higher burden of proof, the Court will apply the preponderance of the evidence standard. Cf. Collegenet, Inc. v. XAP
Corp., 483 F. Supp. 2d 1058, 1065 (D. Or. 2007) (adopting the
clear and convincing standard without analysis).

App. 69
market. Fleishmann, 314 F.2d at 156-57. In fact, the
infringing junior user conceded that it “knew [the senior user] was one of the most popular brands on the
market.” Id. Given the senior user’s popularity, the
court concluded that the “only possible purpose” of the
infringer’s use of the mark would “have been to capitalize on the name.” Id. The court added that the infringing user “must have known, [the senior user’s
popularity] would extend to their product because the
public would associate the name” with the senior user’s
established quality and reputation. Id.
Here, however, the Court found that “[c]onsumers
in the BTTT were not aware of Stone Creek furniture.”
(Doc. 175 ¶ 32.) For example, a brand awareness survey conducted by Dr. Cowan, an expert in statistics and
economics, revealed that “99.75% of the respondents
. . . are not familiar with Stone Creek in Arizona and
Stone Creek has no brand awareness in the BTTT.”
(¶¶ 34-35.) Additionally, “[t]he vast majority of Google
searches for Stone Creek Furniture originate in Arizona,” and “[t]he number of Google searches for the
Stone Creek website from the BTTT is negligible.”
(¶¶ 30-31.) Moreover, Omnia did not “research where
Stone Creek sold its furniture” before adopting the
mark, and offered motives for adopting it other than to
capitalize on Stone Creek’s reputation; namely, that
Stone Creek sounded “American” and it was convenient to use the mark because the marketing materials
and logo were already prepared. (¶¶ 56, 61.) Thus, the
inference drawn by the Ninth Circuit in Fleishmann is

App. 70
not compelled by the Court’s credited factual findings
in this case.3
Stone Creek next argues that Omnia’s failure to
exercise due care to determine whether its use of the
mark constituted infringement is conclusive evidence
of willfulness. Many courts, however, have held that
failure to conduct a trademark search does not necessarily compel such an inference. For example, the
Fourth Circuit remarked that carelessness is quite different from an intent to confuse: “[T]he failure to conduct a trademark search or contact counsel shows
carelessness at most, but is in any event irrelevant because knowledge of another’s goods is not the same as
an intent to mislead and to cause consumer confusion.”
George & Co. LLC v. Imagination Entm’t Ltd., 575 F.3d
383, 398 (4th Cir. 2009) (internal quotation and citation omitted). The Second, Third, and Tenth Circuits
share a similar understanding. See SecuraComm Consulting Inc. v. Securacom Inc., 166 F.3d 182, 189 (3d Cir.
3

Stone Creek also argues that Omnia’s intentional appropriation of the mark compels the application of a presumption that
Omnia intended to deceive customers. (Doc. 197 at 8.) Stone
Creek’s argument, however, conflates the intent factor under the
Sleekcraft analysis with the willfulness inquiry. Although under
Sleekcraft the knowing use of another’s mark creates a presumption that the junior user had an intent to deceive, this presumption does not extend to the willfulness analysis for disgorgement
of profits. Hotko Kinoko Co. v. Concord Farms, Inc., 738 F.3d
1085, 1096 (9th Cir. 2013); 5 J. Thomas McCarthy, McCarthy on
Trademarks and Unfair Competition § 30:62 (5th ed. 2018) (noting that there is a presumption of willfulness only when the infringer provided false contact information to a domain name
registrar).

App. 71
1999), superseded on other grounds by statute, 15
U.S.C. § 1117(a), as recognized in Banjo Buddies, Inc. v.
Renosky, 399 F.3d 168, 173-76 (3d Cir. 2005); King of
the Mountain Sports, Inc. v. Chrysler Corp., 185 F.3d
1084, 1091-92 (10th Cir. 1999); Savin Corp. v. Savin
Group, 391 F.3d 439, 460 (2d Cir. 2004). Accordingly,
although the Court’s factual findings might indicate
that Omnia was careless in its adoption of Stone
Creek’s mark, these findings do not compel the conclusion that Omnia willfully infringed.
II.

Stone Creek Is Not Entitled to Disgorgement of Omnia’s Profits

Even assuming that Omnia willfully infringed on
Stone Creek’s mark, Stone Creek is not entitled to disgorgement of Omnia’s profits because the profits are
not attributable to Omnia’s infringement. Under the
Lanham Act, if the defendant is found liable for willful
trademark infringement, then the plaintiff is entitled
to recover defendant’s profits. 15 U.S.C. § 1117(a). In
assessing the amount of profits, the plaintiff has the
burden to prove the defendant’s gross revenue from the
infringement. The burden then shifts to the defendant
to “prove that sales were demonstrably not attributable to the infringing mark,” or that certain expenses
“should be deducted from the gross revenue to arrive
at the . . . lost profits.” Nintendo Am., Inc. v. Dragon
Pac. Int’l, 40 F.3d 1007, 1012 (9th Cir. 1994) (internal
quotation and citation omitted); Fifty-Six Hope Rd.,
Inc., 778 F.3d at 1076. If the defendant does not carry
this burden, all of the profits from the infringing

App. 72
products belong to the mark owner. Mishawaka Rubber & Woolen Mfg. Co. v. S.S. Kresge Co., 316 U.S. 203,
206-07 (1942).
The parties stipulated that Omnia’s gross sales of
the infringing products were $4,455,352. (Doc. 175
¶ 85.) The burden therefore shifted to Omnia to
demonstrate that the sales were not attributable to its
infringement. Omnia met its burden by demonstrating
that the infringing products were purchased for reasons unrelated to consumer perception of an affiliation
between Stone Creek and the infringing products.
For instance, Omnia established that consumers in
the BTTT were unaware of the Stone Creek brand and
experienced no actual confusion between Stone Creek
and Omnia when purchasing Omnia’s Stone Creek furniture. (¶¶ 32, 35, 46-51, 81, 82.) Moreover, Omnia
demonstrated that Bon-Ton did not contract with
Omnia to sell its furniture because of the Stone Creek
mark. Accordingly, even assuming that Omnia willfully infringed, none of its profits are attributable to
the infringing mark.
III. Stone Creek is Entitled to a Permanent Injunction
Stone Creek also asks the Court to permanently
enjoin Omnia from using the Stone Creek mark. For
its part, Omnia argues that “there is no need for a permanent injunction as there is no likelihood of future
harm” because it “ceased using the Stone Creek mark
in 2013 and no evidence suggests that [it] would ever

App. 73
use the mark again.” (Doc. 196 at 30.) On appeal, the
Ninth Circuit did not consider or make any conclusions
regarding the propriety of a permanent injunction.
Where, as here, “a court is confronted with issues that
the remanding court never considered, the mandate requires respect for what the higher court decided, not
for what it did not decide.” Hall v. City of L.A., 697 F.3d
1059, 1067 (9th Cir. 2012) (internal quotation and citation omitted) (emphasis original). Stated differently, a
lower court is permitted to “decide anything not foreclosed by the mandate” of an appellate court. Id. Because this issue was not foreclosed by the Ninth
Circuit’s mandate, the Court concludes for the following reasons that Stone Creek is entitled to a permanent injunction.
Trademark law gives federal courts the “power to
grant injunctions, according to the principles of equity
and upon such terms as the court may deem reasonable, to prevent the violation of any right of the registrant of a mark.” 15 U.S.C. § 1116.
[A] plaintiff seeking a permanent injunction
must satisfy a four-factor test before a court
may grant such relief. A plaintiff must demonstrate: (1) that it has suffered an irreparable
injury; (2) that remedies available at law, such
as monetary damages, are inadequate to compensate for that injury; (3) that, considering
the balance of hardships between the plaintiff
and defendant, a remedy in equity is warranted; and (4) that the public interest would
not be disserved by a permanent injunction.

App. 74
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391
(2006); see Herb Reed Enters., LLC v. Florida Entm’t
Mgmt., Inc., 736 F.3d 1239, 1248-50 (9th Cir. 2013) (applying eBay factors to trademark law). Although “[t]he
decision to grant or deny permanent injunctive relief
is an act of equitable discretion by the district court,”
the “traditional principles of equity” demand a fair
weighing of the factors listed above, taking into account the unique circumstances of each case. eBay, 547
U.S. at 391, 394.
Stone Creek has carried its burden on all four
prongs. First, evidence of an intangible injury, such as
a loss of customers, damage to a party’s goodwill, or
loss of control over one’s business reputation can constitute irreparable harm. Rent-A-Ctr., Inc. v. Canyon
Television & Appliance Rental, Inc., 944 F.2d 597, 603
(9th Cir. 1991); Herb Reed, 736 F.3d at 1250; see also
Polo Fashions, Inc. v. Dick Bruhn, Inc., 793 F.2d 1132,
1135-36 (9th Cir. 1986) (finding the district court erred
in denying a permanent injunction simply because
the plaintiff failed to offer evidence suggesting the defendant would infringe in the future). For instance, “[i]f
it is likely that confused persons will mistakenly attribute to [the] plaintiff defects or negative impressions they have of [the] defendant’s goods or services,
then the plaintiff ’s reputation (and its signifying
trademark) is at risk because it is in the hands of a
stranger.” 5 McCarthy on Trademarks and Unfair
Competition § 30:2. Here, “Stone Creek’s president [ ]
fielded a telephone call into its office regarding a customer concerned about a warranty issue on a leather

App. 75
sofa” that he purchased “from a Bon-Ton store in Chicago,” which is indicative of such mistaken attribution.
(Doc. 175 ¶¶ 74-75.)
Second, Stone Creek’s irreparable harm indicates
that damages at law are inadequate to remedy Omnia’s
infringement. “The terms ‘inadequate remedy at law’
and ‘irreparable harm’ describe two sides of the same
coin. If the harm being suffered by plaintiff . . . is ‘irreparable,’ then the remedy at law (monetary damages) is ‘inadequate.’ ” 5 McCarthy § 30:2. Indeed,
Stone Creek is not entitled to disgorgement of profits
and therefore is without a monetary remedy for Omnia’s infringement. Moreover, permanent injunctions
are “the usual and normal remedy” for trademark infringement. See 5 McCarthy § 30:1.
Third, the balance of the equities favors Stone
Creek. If the Court issues an injunction, Omnia merely
would be required to refrain from infringing on Stone
Creek’s mark—something it already has done. See
Audi AG v. D’ Amato, 469 F.3d 534, 550 (6th Cir. 2006)
(noting that a defendant suffers no hardship in merely
“refraining from willful trademark infringement”). In
contrast, without an injunction Stone Creek would be
left with little protection against potential future infringement, despite its success in this litigation. Under
the circumstances, the balance of hardships weighs in
Stone Creek’s favor.
Finally, an injunction serves the public interest in
being free from deception and confusion. See Internet
Specialties W., Inc. v. Milon-DiGiorgio Enters., Inc., 559

App. 76
F.3d 985, 993 n.5 (9th Cir. 2009) (“The public has an
interest in avoiding confusion between two companies’
products.”). Accordingly, the Court will permanently
enjoin Omnia from infringing Stone Creek’s mark.
IV. Conclusion
On remand for consideration of remedies, the
Court concludes that Stone Creek is not entitled to
disgorgement of profits because Omnia did not willfully infringe Stone Creek’s mark and, even if it did,
Omnia’s profits were not attributable to its infringement. Stone Creek, however, is entitled to a permanent
injunction.
IT IS ORDERED as follows:
1. In accordance with the Ninth Circuit’s mandate, the Court finds in favor of Stone Creek and
against Omnia on Stone Creek’s trademark infringement claim.
2. Stone Creek is not entitled to disgorgement of
profits.
3. Stone Creek is entitled to a permanent injunction. The parties are directed to meet and confer and,
within fourteen days of the date of this order, submit
a joint proposed preliminary injunction order and form
of judgment for the Court’s review and approval.

App. 77
Dated this 12th day of April, 2018.
/s/ Douglas L. Rayes
Douglas L. Rayes
United States District Judge

App. 78
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Stone Creek Incorporated,
Plaintiff,

NO. CV-13-00688-PHXDLR

v.

ORDER

Omnia Italian Design
Incorporated, et al.,

(Filed Nov. 9, 2015)

Defendants.
This matter was tried before the Court without a
jury for four days commencing on October 20, 2015,
and concluding on October 23, 2015. Having considered
the evidence introduced at trial, the arguments of
counsel, and the applicable law, the Court makes the
following findings of fact and conclusions of law.
FINDINGS OF FACT
1.

Plaintiff Stone Creek, Inc. (“Stone Creek”), an Arizona Corporation, brought this case against Omnia Italian Design, Inc. (“Omnia”) alleging claims
of federal and common law trademark infringement and unfair competition.

2.

Stone Creek is a company that manufactures and
sells furniture in Arizona.

3.

Stone Creek has operated solely out of the Phoenix, Arizona area, except for a period from 2004 to
2008, during which it also manufactured and sold
furniture in Dallas, Texas.

App. 79
4.

Around 1990, Stone Creek adopted and began using the STONE CREEK mark:

5.

The STONE CREEK mark is a “red oval-shape circle around the words ‘Stone Creek.’ ”

6.

In 1992, Stone Creek first obtained state trademark and trade name registrations for the trade
name “Stone Creek Furnishings” and the following trademark: “oval encircling the trade name of
Stone Creek.”

7.

Stone Creek renewed the trade name and trademark certifications in 2006.

8.

On February 7, 2012, Stone Creek became the
owner of U.S. Registration No. 4,095,866 for the
word mark STONE CREEK in standard characters, and U.S. Registration No. 4,096,079 for the
wording STONE CREEK surrounded by a stylized, red oval.

9.

Household furniture is typically sold locally to customers living within a drivable radius from the
furniture outlet retail store.

10. The size, weight, and costs to ship, as well the customers’ preference to see and sit on the furniture,
has created the retail furniture business model; local furniture stores.

App. 80
11. Stone Creek follows the typical retail furniture
store business model, selling its furniture locally
in the Phoenix area.
12. Stone Creek delivers furniture locally but does not
ship furniture out of state.
13. Stone Creek has a website, but does not sell furniture directly through its website. It does not engage in internet sales.
14. Stone Creek operates five showrooms in the Phoenix, Arizona area.
15. The President and owner of Stone Creek, Ron
Jones, has had a goal of expanding Stone Creek,
but there are no plans to expand and there have
been no acts directed toward expanding after
Stone Creek closed its Texas operations.
16. The Bon-Ton Stores, Inc. (“Bon-Ton”) is a large retailer that operates furniture galleries in Illinois,
Wisconsin, Pennsylvania, Ohio, and Michigan.
17. Omnia’s products are sold to purchasers living
within 200 miles of a Bon-Ton Furniture gallery,
which includes portions of Iowa, Indiana, Ohio,
Wisconsin, Pennsylvania, Illinois, and Michigan,
the Bon Ton trading territory. (the “BTTT”).
18. The parties’ distinct trading territories are separated by over 1000 miles at their closest points and
nearly 2000 miles at their furthest.
19. From 1993 through 1998, Stone Creek advertised
its brand in the monthly Southwest Airlines Spirit
magazine and America West’s in-flight magazine
(“airline magazines”).

App. 81
20. These airlines travelled in Arizona, as well as
throughout the BTTT.
21. In 1998, Stone Creek began advertising in Phoenix Magazine and Phoenix Home and Garden
Magazine (“Phoenix magazines”).
22. Neither the airline magazines nor the Phoenix
magazines had or have a significant presence in
any of the BTTT states and none of them created
awareness of Stone Creek in the BTTT.
23. Stone Creek’s marketing channels existed only
within the State of Arizona during the relevant
time period.
24. Stone Creek did not target advertising or marketing at the BTTT during the relevant time period.
25. Stone Creek placed its mark on its website, stonecreekfurniture.com, as early as 2000.
26. Stone Creek hired Netwirks to increase its brand
exposure through search engine optimization.
27. Netwirks has been successful at establishing the
STONE CREEK mark.
28. Consumers can access Stone Creek’s website by
going to stonecreekfurniture.com or by searching
for “stone creek” and “leather,” “furniture” or “sofa.”
29. The website has not created awareness of Stone
Creek in the BTTT.
30. The vast majority of Google searches for Stone
Creek Furniture originate in Arizona.
31. The number of Google searches for the Stone
Creek website from the BTTT is negligible.

App. 82
32. Consumers in the BTTT are not aware of Stone
Creek Furniture.
33. There are many businesses within the BTTT that
operate under the name of Stone Creek. These
businesses do not sell furniture.
34. Dr. Cowan, an expert in statistics and economics,
conducted a brand awareness survey in the BTTT.
35. 99.75% of the respondents to the survey are not
familiar with Stone Creek in Arizona and Stone
Creek has no brand awareness in the BTTT.
36. Stone Creek has realized more than $200,000,000
in sales since inception, mostly in the Phoenix
area. Approximately 0.3% of its total sales occurred in the BTTT, breaking down as follows:
State

Date of
Years with
Total
First Sale
Sales
Sales $
Illinois
1/4/1996 1996-2009, 2011- $346,820.90
2013
Ohio
1/29/1996 1996-1998, 2002, $32,014.25
2003, 2005-2007,
2009
Pennsylvania 1/31/1996 1996-2003, 2005- $65,607.25
2007, 2009, 2011
Michigan
2/7/1996 1996-2004, 2006, $88,517.33
2007, 2009, 2010,
2011, 2013
Wisconsin 3/26/1996 1996-1999, 2003- $77,424.71
2006, 2008, 2010,
2011, 2013
Totals
$610,384.44

App. 83
37. Stone Creek has the customer list for its approximate 65,000 transactions since its inception, including the approximate 150 customers from the
BTTT who, since inception, purchased Stone
Creek furniture.
38. The number of Stone Creek customers and the total value of those sales from the BTT since Stone
Creek’s inception is trivial considered in light of
the number of total sales and the total value of
those sales over that period of time.
39. There is no evidence presented as to how any of
the approximate 150 customers from the BTTT
came to know of Stone Creek or why any customer
from the BTTT purchased from Stone Creek.
40. In 2003, Stone Creek met Omnia at a trade show
in San Francisco.
41. Omnia is a California-based manufacturer of
leather furniture.
42. Omnia marketed its products to Stone Creek by
explaining Omnia’s leather furniture would fit
well with Stone Creek’s existing sofa and seating
lines.
43. In 2003, Omnia entered into an Agreement with
Stone Creek to manufacture leather branded with
Stone Creek’s STONE CREEK mark for Stone
Creek’s business.
44. From 2003 through 2012, Stone Creek was Omnia’s customer.
45. Prior to 2008, Omnia had solicited Bon-Ton’s business for a number of years.

App. 84
46. In 2008, Bon-Ton became one of Omnia’s “significant” customers.
47. Bon-Ton did not want to sell Omnia’s furniture under the “Omnia brand,” it wanted a private label—
i.e. a name other than Omnia to avoid competition
with Omnia’s other customers.
48. After Omnia and Bon-Ton agreed that Omnia
would become Bon Ton’s supplier of leather furniture, Bon Ton indicated that it would like a label
with an “American made name.”
49. Omnia’s president offered several suggestions, including STONE CREEK.
50. Bon Ton decided to market some of its furniture
under the STONE CREEK name.
51. Bon Ton’s decision to use Omnia as a supplier was
not tied to nor conditioned on the use of the
STONE CREEK mark.
52. Omnia knew of Stone Creek’s use of the mark at
the time Omnia offered it for Bon-Ton’s private label.
53. Omnia copied the STONE CREEK mark from materials provided to it by Stone Creek.
54. Omnia’s president provided old documents that
had the STONE CREEK logo on it to its brand
manager and told him to recreate the identical
STONE CREEK logo.
55. The mark was digitally recreated because the resolution from scanning the old documents was too
low.

App. 85
56. Omnia selected the STONE CREEK mark for
Bon-Ton’s private label, in part, because it
sounded American and because marketing materials and a logo were already prepared.
57. Omnia did not choose the mark with the intent of
trading off of Stone Creek’s goodwill.
58. The logo was the identical STONE CREEK mark
that Stone Creek provided to Omnia for use on its
private label.
59. Omnia never asked Stone Creek if it could use the
mark.
60. Omnia never consulted an attorney regarding
whether it could place the STONE CREEK mark
on furniture being sold to Bon-Ton.
61. Omnia’s president since 2004, Peter Zolferino,
having been in the furniture business and having
done business with Stone Creek, understood that
Stone Creek sold in the Phoenix area, but he never
researched where Stone Creek sold its furniture.
62. Omnia never performed an internet or other documentary search to determine where or how Stone
Creek sold its furniture.
63. Omnia never asked where Stone Creek’s customers were located prior to using the mark.
64. Omnia never performed any internet or documentary searches to determine where Stone Creek’s
customers were located.
65. Omnia adopted and used the STONE CREEK
mark with full knowledge of Stone Creek’s senior
use.

App. 86
66. Bon-Ton entered into an agreement under which
Omnia would manufacture leather furniture for
Bon-Ton using a private label and Bon Ton would
sell the furniture in the BTTT (the “Accused
Sales”).
67. All of the Accused Sales occurred in the BTTT;
none of them occurred in Arizona. 68. From 2008
to 2013, Omnia sold leather furniture to Bon-Ton
branded with the STONE CREEK mark.
69. Omnia created point-of-sale binders branded with
the STONE CREEK mark.
70. Omnia created a wood leg color board for display
in Bon-Ton stores, which had the STONE CREEK
mark prominently displayed.
71. Omnia created sample leathers for point-of-sale
reference, which were marked with the STONE
CREEK mark.
72. Omnia redesigned warranty cards with the
STONE CREEK mark and ordered 5,000 new warranty cards for Bon-Ton’s STONE CREEK line.
73. In 2013, after inquiries from individuals in the
BTTT, Stone Creek asked Omnia if it sold products
under the STONE CREEK mark to other companies.
74. Stone Creek’s president also fielded a telephone
call into its office regarding a customer concerned
about a warranty issue on a leather sofa.
75. The customer indicated that he purchased the
sofa, which was a STONE CREEK brand, from a
Bon-Ton store in Chicago.

App. 87
76. The customer described a warranty document that
had the STONE CREEK mark on it, and the mark
led the customer to Stone Creek’s website.
77. Stone Creek’s president then found its mark being
used on furniture sold on Bon-Ton’s website.
78. Omnia’s use of the STONE CREEK mark was confirmed by Murray Eastern, Omnia’s Vice President of Sales, in an email dated January 24, 2013,
wherein Mr. Eastern admitted selling furniture
under the STONE CREEK mark: “Ron, yes, we do
sell our products to those stores under their marketing name ‘Stone Creek Leather.’ ”
79. Mr. Eastern’s email went on: “In this day of internet shopping and surfing, it is unfortunate and
probably a nuisance for you that your stores are
receiving inquiries regarding these products due
to the similar name . . . ”
80. After Stone Creek notified Omnia of its complaints
in 2013, Omnia changed the name of the furniture
that it had been selling under the STONE CREEK
name to Red Canyon.
81. Stone Creek’s trademark did not earn any goodwill, reputation, or consumer recognition in the
BTTT.
82. There was no actual confusion by a consumer in
the BTTT purchasing Omnia STONE CREEK furniture.
83. Stone Creek owns the website stonecreekfurniture.com.

App. 88
84. In February 2013, Omnia was still using the
STONE CREEK mark with the red oval around
the words “Stone Creek.”
85. Omnia’s gross revenue from the Accused Sales was
$4,455,352.
CONCLUSIONS OF LAW
86. Stone Creek asserts claims for federal and common law trademark infringement and Lanham
Act unfair competition.
87. A trademark is any word, name, symbol, device, or
any combination thereof, used by a person to identify and distinguish that person’s goods from those
of others and to indicate the source of the goods,
even if that source is generally unknown. 15 U.S.C.
§ 1127.
88. “A trademark is a limited property right in a particular word, phrase or symbol.” New Kids on the
Block v. New Am. Pub., Inc., 971 F.2d 302, 306 (9th
Cir. 1992). It identifies the source of goods.
Brookfield Commc’ns, Inc. v. W. Coast Entm’t Corp.,
174 F.3d 1036, 1051 (9th Cir. 1999).
89. To prevail on its trademark infringement and unfair competition claims, Stone Creek must show:
(1) it owns a valid mark; (2) the mark was used
without its consent; and (3) such unauthorized use
is likely to cause confusion among ordinary consumers as to the source, sponsorship, affiliation, or
approval of the goods. See Credit One Corp. v.
Credit One Fin., Inc., 661 F. Supp. 2d 1134, 1137
(C.D. Cal. 2009) (collecting cases and authorities).

App. 89
90. On August 28, 2014, the Court granted summary
judgment for Stone Creek on the issues of ownership of the STONE CREEK mark and Omnia’s
lack of permission to use the mark for the Accused
Sales.
91. At trial, Stone Creek had the burden to establish
that Omnia’s unauthorized use was likely to cause
confusion. Stone Creek failed to meet its burden.
92. The holder of a trademark in a Lanham Act claim,
“must show that the defendant’s use of its trademark ‘is likely to cause confusion, or to cause mistake, or to deceive.’ ” Fortune Dynamic, Inc. v.
Victoria’s Secret Stores Brand Mgmt., 618 F.3d
1025, 1030 (9th Cir.2010) (quoting 15 U.S.C.
§ 1125(a)(1)-(a)(1)(A)). “The test for likelihood of
confusion is whether a ‘reasonably prudent consumer’ in the marketplace is likely to be confused
as to the origin of the good or service bearing one
of the marks.” Dreamwerks Prod. Grp. v. SKG Studio, 142 F.3d 1127, 1129 (9th Cir. 1998). “The confusion must ‘be probable, not simply a possibility.’ ”
Murray v. Cable Nat’l Broad. Co., 86 F.3d 858, 861
(9th Cir.1996) (citing Rodeo Collection, Ltd. v. W.
Seventh, 812 F.2d 1215, 1217 (9th Cir. 1987)).
93. Likelihood of confusion is the core element of
trademark infringement. “The limited purpose of
trademark protections set forth in the Lanham
[Trademark] Act is to ‘avoid confusion in the marketplace’ by allowing a trademark owner to ‘prevent[ ] others from duping consumers into buying
a product they mistakenly believe is sponsored by
the trademark owner.’ ” Mattel, Inc. v. Walking
Mountain Prods., 353 F.3d 792, 806 (9th Cir. 2003)

App. 90
(citing Mattel, Inc. v. MCA Records, Inc., 296 F.3d
894, 900 (9th Cir. 2002)).
94. “Generally, to assess whether a defendant has infringed on a plaintiff ’s trademark, we apply a
‘likelihood of confusion’ test that asks whether use
of the plaintiff ’s trademark by the defendant is
‘likely to cause confusion or to cause mistake, or to
deceive as to the affiliation, connection, or association’ of the two products.” Id. at 806-807 (citing
Cairns v. Franklin Mint Co., 292 F.3d 1139, 1149
(9th Cir. 2002)). “[T]he ultimate test is whether the
public is likely to be deceived or confused by the
similarity of the marks. Whether we call the violation infringement, unfair competition or false designation of origin, the test is identical[:] is there a
‘likelihood of confusion?’ ” New W. Corp. v. NYM Co.
of California, Inc., 595 F.2d 1194, 1201 (9th Cir.
1979) (citations omitted).
95. The Court finds no evidence of actual confusion by
any consumer when purchasing STONE CREEK
furniture in the BTTT, but even had Stone Creek
shown a trivial number of purchasers had been actually confused, a trivial number of instances of
actual confusion does not meet the test for trademark infringement. The test is whether the defendant’s mark is “likely to confuse an appreciable
number of people as to the source of the product.”
Falcon Stainless, Inc. v. Rino Cos., 572 Fed. App’x
483, 486 (9th Cir. 2014) (citing Entrepreneur
Media, Inc. v. Smith, 279 F.3d 1135, 1151 (9th Cir.
2002)); see also Playboy Enters., Inc. v. Netscape
Commc’ns Corp., 354 F.3d 1020, 1026 (9th Cir.
2004) (“[A]ctual confusion among significant

App. 91
numbers of consumers provides strong support for
the likelihood of confusion.”).
96. When assessing the likelihood of confusion, the
Court may consider the following, non-exhaustive
factors: (1) strength of the mark; (2) proximity of
the goods; (3) similarity of the marks; (4) evidence
of actual confusion; (5) marketing channels used;
(6) type of goods and the degree of care likely to be
exercised by the purchaser; (7) defendant’s intent
in selecting the mark; and (8) likelihood of expansion of the product lines. AMF Inc. v. Sleekcraft
Boats, 599 F.2d 341, 348-49 (9th Cir. 1979), abrogated on other grounds by Mattel, Inc. v. Walking
Mountain Prods., 353 F.3d 792, 806 (9th Cir. 2003).
97. These factors must be applied in a “flexible fashion” as they are intended merely as a proxy or
substitute for consumer confusion, “not a rote
checklist.” Rearden LLC v. Rearden Commerce,
Inc., 683 F.3d 1190, 1209 (9th Cir. 2012). “A determination may rest on only those factors that are
most pertinent to the particular case before the
court” and the analysis is “best understood as
simply providing helpful guideposts.” Id. at 120910 (quotations and citations omitted).
98. The Sleekcraft factors weigh in favor of Omnia.
Applying the Sleekcraft factors, the Court finds:
A. The STONE CREEK mark is strong in
Arizona, but it is not recognized in the
BTTT for its relationship to Stone Creek.
B.

The goods sold by Omnia and Stone
Creek are the same.

C.

The marks are the same.

App. 92
D. There is no evidence of actual confusion
by any consumer in the BTTT who purchased Omnia furniture believing it was
manufactured or sold by Stone Creek.
E. The parties had distinct marketing channels with no opportunity for crossover.
Because of the local nature of the furniture industry, consumers in the BTTT
were not targeted for marketing by Stone
Creek.
F.

Furniture is expensive and consumers
are therefore expected to exercise greater
care.

G. Bon-Ton selected the mark because it had
an American sound to it, and because the
marketing material and logo already existed and were in the possession of Omnia. There was no intent to trade off of
Stone Creek’s goodwill.
H. Stone Creek has no plans to expand.
99. Even if the Sleekcraft factors weighed in Stone
Creek’s favor, they may take a back seat when territorial divisions prevent confusion. “Even where
the Sleekcraft factors weigh in favor of the [plaintiff ], . . . territorial divisions may prevent confusion. An unauthorized junior mark user . . . can
contest likelihood of confusion by arguing that,
since ‘the registrant and the unauthorized user
are confined to two sufficiently distinct and geographically separate markets,’ there is no likelihood of confusion.” Russell Rd. Food & Beverage,
LLC v. Spencer, No. 2:12-cv-01514-LRH-GWF,

App. 93
2013 WL 321666, at *2 (D. Nev. Jan. 28, 2013) (citing Dawn Donut Co., Inc. v. Hart’s Food Stores, Inc.,
267 F.2d 358, 364 (2d Cir. 1959)); cf. Mister Donut
of Am., Inc. v. Mr. Donut, Inc., 418 F.2d 838, 844
(9th Cir. 1969) (“[W]here a federal registrant has
expanded its business to the point that the use of
the conflictingly similar marks by the registrant
and the unauthorized user are no longer confined
to separate and distinct market areas and there is
established the likelihood of public confusion, the
federal registrant is entitled under the authority
of the Lanham Act to injunctive relief.”) (emphasis
added).
100. Because furniture consumers are local consumers, and because Stone Creek’s entire market
was Arizona and Bon Ton’s market was the five
Midwest states of the BTTT—markets that are
over 1000 miles at their closest points and nearly
2000 miles at their furthest—territorial isolation prevented the likelihood of confusion of
an appreciable number of consumers in the
BTTT.
101. “[T]he sine qua non of trademark infringement is
consumer confusion,” Network Automation, Inc. v.
Advanced Sys. Concepts, 638 F.3d 1137, 1149 (9th
Cir. 2011). Because of the separate markets that
exist here, there is no likelihood of confusion under
any test, including the Sleekcraft factors.
102. The evidence supports a finding that separate
markets prevented the likelihood of confusion:

App. 94
A. Consumers in the BTTT were unaware of
Stone Creek;
B.

The vast majority of Google searches for
Stone Creek Furniture originate in Arizona;

C.

The number of Google searches for the
Stone Creek website from the BTTT were
negligible;

D. Stone Creek had no brand awareness in
the BTTT;
E. There was no actual confusion by a consumer in the BTTT purchasing Omnia
STONE CREEK furniture.
103. Omnia is not liable to Stone Creek on any of Stone
Creek’s claims. Accordingly,
IT IS ORDERED finding in favor of Defendant
Omnia Italian Designs, Inc., and against Plaintiff
Stone Creek, Inc. on all counts and all causes of action.
The Clerk shall enter judgment in accordance with
this Order.
Dated this 9th day of November, 2015.
/s/ Douglas L. Rayes
Douglas L. Rayes
United States District Judge

App. 95
15 USCS § 1117
Recovery for violation of rights
(a) Profits; damages and costs; attorney fees.
When a violation of any right of the registrant of a
mark registered in the Patent and Trademark Office,
a violation under section 43(a) or (d) [15 USCS
§ 1125(a) or (d)], or a willful violation under section
43(c) [15 USCS § 1125(c)], shall have been established
in any civil action arising under this Act, the plaintiff
shall be entitled, subject to the provisions of sections
29 and 32 [15 USCS §§ 1111, 1114], and subject to the
principles of equity, to recover (1) defendant’s profits,
(2) any damages sustained by the plaintiff, and (3) the
costs of the action. The court shall assess such profits
and damages or cause the same to be assessed under
its direction. In assessing profits the plaintiff shall be
required to prove defendant’s sales only; defendant
must prove all elements of cost or deduction claimed.
In assessing damages the court may enter judgment,
according to the circumstances of the case, for any sum
above the amount found as actual damages, not exceeding three times such amount. If the court shall find
that the amount of the recovery based on profits is
either inadequate or excessive the court may in its discretion enter judgment for such sum as the court shall
find to be just, according to the circumstances of the
case. Such sum in either of the above circumstances
shall constitute compensation and not a penalty. The
court in exceptional cases may award reasonable attorney fees to the prevailing party.

App. 96
(b) In assessing damages under subsection (a) for
any violation of section 32(1)(a) of this Act [15 USCS
§ 1114(1)(a)] or section 220506 of title 36, United
States Code, in a case involving use of a counterfeit
mark or designation (as defined in section 34(d) of this
Act [15 USCS § 1116(d)]), the court shall, unless the
court finds extenuating circumstances, enter judgment
for three times such profits or damages, whichever
amount is greater, together with a reasonable attorney’s fee, if the violation consists of—
(1) intentionally using a mark or designation,
knowing such mark or designation is a counterfeit
mark (as defined in section 34(d) of this Act [15
USCS § 1116(d)]), in connection with the sale,
offering for sale, or distribution of goods or services; or
(2) providing goods or services necessary to the
commission of a violation specified in paragraph
(1), with the intent that the recipient of the goods
or services would put the goods or services to use
in committing the violation.
In such a case, the court may award prejudgment interest on such amount at an annual interest rate established under section 6621(a)(2) of the Internal
Revenue Code of 1986 [26 USCS § 6621(a)(2)], beginning on the date of the service of the claimant’s pleadings setting forth the claim for such entry of judgment
and ending on the date such entry is made, or for such
shorter time as the court considers appropriate.
(c) Statutory damages for use of counterfeit
marks. In a case involving the use of a counterfeit

App. 97
mark (as defined in section 34(d) (15 U.S.C. 1116(d)) in
connection with the sale, offering for sale, or distribution of goods or services, the plaintiff may elect, at any
time before final judgment is rendered by the trial
court, to recover, instead of actual damages and profits
under subsection (a), an award of statutory damages
for any such use in connection with the sale, offering
for sale, or distribution of goods or services in the
amount of—
(1) not less than $1,000 or more than $200,000
per counterfeit mark per type of goods or services
sold, offered for sale, or distributed, as the court
considers just; or
(2) if the court finds that the use of the counterfeit mark was willful, not more than $2,000,000
per counterfeit mark per type of goods or services
sold, offered for sale, or distributed, as the court
considers just.
(d) Statutory damages for violation of section
1125(d)(1). In a case involving a violation of section
43(d)(1) [15 USCS § 1125(d)(1)], the plaintiff may elect,
at any time before final judgment is rendered by the
trial court, to recover, instead of actual damages and
profits, an award of statutory damages in the amount
of not less than $1,000 and not more than $100,000 per
domain name, as the court considers just.
(e) Rebuttable presumption of willful violation.
In the case of a violation referred to in this section, it
shall be a rebuttable presumption that the violation is
willful for purposes of determining relief if the violator,

App. 98
or a person acting in concert with the violator, knowingly provided or knowingly caused to be provided materially false contact information to a domain name
registrar, domain name registry, or other domain name
registration authority in registering, maintaining, or
renewing a domain name used in connection with the
violation. Nothing in this subsection limits what may
be considered a willful violation under this section.

App. 99
15 USCS § 1125, Part 1 of 3
False designations of origin, false descriptions,
and dilution forbidden
(a)

Civil action.
(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses
in commerce any word, term, name, symbol, or device, or any combination thereof, or any false designation of origin, false or misleading description
of fact, or false or misleading representation of
fact, which—
(A) is likely to cause confusion, or to cause
mistake, or to deceive as to the affiliation, connection, or association of such person with another person, or as to the origin, sponsorship,
or approval of his or her goods, services, or
commercial activities by another person, or
(B) in commercial advertising or promotion,
misrepresents the nature, characteristics,
qualities, or geographic origin of his or her or
another person’s goods, services, or commercial activities,
shall be liable in a civil action by any person who
believes that he or she is or is likely to be damaged
by such act.
(2) As used in this subsection, the term “any
person” includes any State, instrumentality of a
State or employee of a State or instrumentality of
a State acting in his or her official capacity. Any
State, and any such instrumentality, officer, or
employee, shall be subject to the provisions of this

App. 100
Act in the same manner and to the same extent as
any nongovernmental entity.
(3) In a civil action for trade dress infringement
under this Act for trade dress not registered on the
principal register, the person who asserts trade
dress protection has the burden of proving that the
matter sought to be protected is not functional.
(b) Importation. Any goods marked or labeled in
contravention of the provisions of this section shall
not be imported into the United States or admitted to
entry at any customhouse of the United States. The
owner, importer, or consignee of goods refused entry at
any customhouse under this section may have any recourse by protest or appeal that is given under the
customs revenue laws or may have the remedy given
by this Act in cases involving goods refused entry or
seized.
(c) Dilution by blurring; dilution by tarnishment.
(1) Injunctive relief. Subject to the principles of
equity, the owner of a famous mark that is distinctive, inherently or through acquired distinctiveness, shall be entitled to an injunction against
another person who, at any time after the owner’s
mark has become famous, commences use of a
mark or trade name in commerce that is likely to
cause dilution by blurring or dilution by tarnishment of the famous mark, regardless of the presence or absence of actual or likely confusion, of
competition, or of actual economic injury.
(2)

Definitions.

App. 101
(A) For purposes of paragraph (1), a mark is
famous if it is widely recognized by the general consuming public of the United States as
a designation of source of the goods or services
of the mark’s owner. In determining whether
a mark possesses the requisite degree of
recognition, the court may consider all relevant factors, including the following:
(i) The duration, extent, and geographic
reach of advertising and publicity of the
mark, whether advertised or publicized
by the owner or third parties.
(ii) The amount, volume, and geographic extent of sales of goods or services offered under the mark.
(iii) The extent of actual recognition of
the mark.
(iv) Whether the mark was registered
under the Act of March 3, 1881, or the Act
of February 20, 1905, or on the principal
register.
(B) For purposes of paragraph (1), “dilution
by blurring” is association arising from the
similarity between a mark or trade name and
a famous mark that impairs the distinctiveness of the famous mark. In determining
whether a mark or trade name is likely to
cause dilution by blurring, the court may consider all relevant factors, including the following:

App. 102
(i) The degree of similarity between the
mark or trade name and the famous
mark.
(ii) The degree of inherent or acquired
distinctiveness of the famous mark.
(iii) The extent to which the owner of
the famous mark is engaging in substantially exclusive use of the mark.
(iv) The degree of recognition of the famous mark.
(v) Whether the user of the mark or
trade name intended to create an association with the famous mark.
(vi) Any actual association between the
mark or trade name and the famous
mark.
(C) For purposes of paragraph (1), “dilution
by tarnishment” is association arising from
the similarity between a mark or trade name
and a famous mark that harms the reputation
of the famous mark.
(3) Exclusions. The following shall not be actionable as dilution by blurring or dilution by tarnishment under this subsection:
(A) Any fair use, including a nominative or
descriptive fair use, or facilitation of such fair
use, of a famous mark by another person other
than as a designation of source for the person’s own goods or services, including use in
connection with—

App. 103
(i) advertising or promotion that permits
consumers to compare goods or services;
or
(ii) identifying and parodying, criticizing,
or commenting upon the famous mark
owner or the goods or services of the famous mark owner.
(B) All forms of news reporting and news
commentary.
(C)

Any noncommercial use of a mark.

(4) Burden of proof. In a civil action for trade
dress dilution under this Act for trade dress not
registered on the principal register, the person
who asserts trade dress protection has the burden
of proving that—
(A) the claimed trade dress, taken as a
whole, is not functional and is famous; and
(B) if the claimed trade dress includes any
mark or marks registered on the principal
register, the unregistered matter, taken as a
whole, is famous separate and apart from any
fame of such registered marks.
(5) Additional remedies. In an action brought
under this subsection, the owner of the famous
mark shall be entitled to injunctive relief as set
forth in section 34. The owner of the famous mark
shall also be entitled to the remedies set forth in
sections 35(a) and 36 [15 USCS § 1117(a) and
1118], subject to the discretion of the court and the
principles of equity if—

App. 104
(A) the mark or trade name that is likely to
cause dilution by blurring or dilution by tarnishment was first used in commerce by the
person against whom the injunction is sought
after the date of enactment of the Trademark
Dilution Revision Act of 2006 [enacted Oct. 6,
2006]; and
(B) in a claim arising under this subsection—
(i) by reason of dilution by blurring, the
person against whom the injunction is
sought willfully intended to trade on the
recognition of the famous mark; or
(ii) by reason of dilution by tarnishment, the person against whom the injunction is sought willfully intended to
harm the reputation of the famous mark.
(6) Ownership of valid registration a complete
bar to action. The ownership by a person of a valid
registration under the Act of March 3, 1881, or the
Act of February 20, 1905, or on the principal register under this Act shall be a complete bar to an
action against that person, with respect to that
mark, that—
(A) is brought by another person under the
common law or a statute of a State; and
(B)
(i) seeks to prevent dilution by blurring
or dilution by tarnishment; or
(ii) asserts any claim of actual or likely
damage or harm to the distinctiveness or

App. 105
reputation of a mark, label, or form of advertisement.
(7) Savings clause. Nothing in this subsection
shall be construed to impair, modify, or supersede
the applicability of the patent laws of the United
States.
(d)

Cyberpiracy prevention.
(1)
(A) A person shall be liable in a civil action
by the owner of a mark, including a personal
name which is protected as a mark under this
section, if, without regard to the goods or services of the parties, that person—
(i) has a bad faith intent to profit from
that mark, including a personal name
which is protected as a mark under this
section; and
(ii) registers, traffics in, or uses a domain name that—
(I) in the case of a mark that is distinctive at the time of registration of
the domain name, is identical or confusingly similar to that mark;
(II) in the case of a famous mark
that is famous at the time of registration of the domain name, is identical
or confusingly similar to or dilutive of
that mark; or
(III) is a trademark, word, or name
protected by reason of section 706 of

App. 106
title 18, United States Code, or section 220506 of title 36, United States
Code.
(B)
(i) In determining whether a person
has a bad faith intent described under
subparagraph (A), a court may consider
factors such as, but not limited to—
(I) the trademark or other intellectual property rights of the person, if
any, in the domain name;
(II) the extent to which the domain
name consists of the legal name of
the person or a name that is otherwise commonly used to identify that
person;
(III) the person’s prior use, if any, of
the domain name in connection with
the bona fide offering of any goods or
services;
(IV) the person’s bona fide noncommercial or fair use of the mark in a
site accessible under the domain
name;
(V) the person’s intent to divert
consumers from the mark owner’s
online location to a site accessible under the domain name that could
harm the goodwill represented by
the mark, either for commercial gain
or with the intent to tarnish or

App. 107
disparage the mark, by creating a
likelihood of confusion as to the
source, sponsorship, affiliation, or endorsement of the site;
(VI) the person’s offer to transfer,
sell, or otherwise assign the domain
name to the mark owner or any third
party for financial gain without having used, or having an intent to use,
the domain name in the bona fide
offering of any goods or services, or
the person’s prior conduct indicating
a pattern of such conduct;
(VII) the person’s provision of material and misleading false contact
information when applying for the
registration of the domain name, the
person’s intentional failure to maintain accurate contact information, or
the person’s prior conduct indicating
a pattern of such conduct;
(VIII) the person’s registration or
acquisition of multiple domain
names which the person knows are
identical or confusingly similar to
marks of others that are distinctive
at the time of registration of such
domain names, or dilutive of famous
marks of others that are famous at
the time of registration of such domain names, without regard to the
goods or services of the parties; and

App. 108
(IX) the extent to which the mark
incorporated in the person’s domain
name registration is or is not distinctive and famous within the meaning
of subsection (c).
(ii) Bad faith intent described under
subparagraph (A) shall not be found in
any case in which the court determines
that the person believed and had reasonable grounds to believe that the use of the
domain name was a fair use or otherwise
lawful.
(C) In any civil action involving the registration, trafficking, or use of a domain name
under this paragraph, a court may order the
forfeiture or cancellation of the domain name
or the transfer of the domain name to the
owner of the mark.
(D) A person shall be liable for using a domain name under subparagraph (A) only if
that person is the domain name registrant or
that registrant’s authorized licensee.
(E) As used in this paragraph, the term
“traffics in” refers to transactions that include, but are not limited to, sales, purchases,
loans, pledges, licenses, exchanges of currency,
and any other transfer for consideration or receipt in exchange for consideration.
(2)
(A) The owner of a mark may file an in rem
civil action against a domain name in the judicial district in which the domain name

App. 109
registrar, domain name registry, or other domain name authority that registered or assigned the domain name is located if—
(i) the domain name violates any right
of the owner of a mark registered in the
Patent and Trademark Office, or protected under subsection (a) or (c); and
(ii)

the court finds that the owner—
(I) is not able to obtain in personam
jurisdiction over a person who would
have been a defendant in a civil action under paragraph (1); or
(II) through due diligence was not
able to find a person who would have
been a defendant in a civil action under paragraph (1) by—
(aa) sending a notice of the alleged violation and intent to proceed under this paragraph to the
registrant of the domain name at
the postal and e-mail address
provided by the registrant to the
registrar; and
(bb) publishing notice of the
action as the court may direct
promptly after filing the action.

(B) The actions under subparagraph (A)(ii)
shall constitute service of process.
(C) In an in rem action under this paragraph, a domain name shall be deemed to

App. 110
have its situs in the judicial district in
which—
(i) the domain name registrar, registry,
or other domain name authority that registered or assigned the domain name is
located; or
(ii) documents sufficient to establish
control and authority regarding the disposition of the registration and use of the
domain name are deposited with the
court.
(D)
(i) The remedies in an in rem action under this paragraph shall be limited to a
court order for the forfeiture or cancellation of the domain name or the transfer
of the domain name to the owner of the
mark. Upon receipt of written notification
of a filed, stamped copy of a complaint
filed by the owner of a mark in a United
States district court under this paragraph, the domain name registrar, domain name registry, or other domain
name authority shall—
(I) expeditiously deposit with the
court documents sufficient to establish the court’s control and authority
regarding the disposition of the registration and use of the domain name
to the court; and
(II) not transfer, suspend, or otherwise modify the domain name during

App. 111
the pendency of the action, except
upon order of the court.
(ii) The domain name registrar or registry or other domain name authority
shall not be liable for injunctive or monetary relief under this paragraph except in
the case of bad faith or reckless disregard,
which includes a willful failure to comply
with any such court order.
(3) The civil action established under paragraph
(1) and the in rem action established under paragraph (2), and any remedy available under either
such action, shall be in addition to any other civil
action or remedy otherwise applicable.
(4) The in rem jurisdiction established under
paragraph (2) shall be in addition to any other jurisdiction that otherwise exists, whether in rem or
in personam.

